<html>
<title> - KEEPING OUR SIGHTS ON MARS: A REVIEW OF NASA'S DEEP SPACE EXPLORATION PROGRAMS AND LUNAR PROPOSAL</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                      KEEPING OUR SIGHTS ON MARS:
                     A REVIEW OF NASA'S DEEP SPACE
                EXPLORATION PROGRAMS AND LUNAR PROPOSAL

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                                 OF THE

                      COMMITTEE ON SCIENCE, SPACE,
                               TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 8, 2019

                               __________

                           Serial No. 116-16

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://science.house.gov       
       
                               __________


                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-255PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
CONOR LAMB, Pennsylvania             BRIAN BABIN, Texas
LIZZIE FLETCHER, Texas               ANDY BIGGS, Arizona
HALEY STEVENS, Michigan              ROGER MARSHALL, Kansas
KENDRA HORN, Oklahoma                RALPH NORMAN, South Carolina
MIKIE SHERRILL, New Jersey           MICHAEL CLOUD, Texas
BRAD SHERMAN, California             TROY BALDERSON, Ohio
STEVE COHEN, Tennessee               PETE OLSON, Texas
JERRY McNERNEY, California           ANTHONY GONZALEZ, Ohio
ED PERLMUTTER, Colorado              MICHAEL WALTZ, Florida
PAUL TONKO, New York                 JIM BAIRD, Indiana
BILL FOSTER, Illinois                JAIME HERRERA BEUTLER, Washington
DON BEYER, Virginia                  JENNIFFER GONZALEZ-COLON, 
CHARLIE CRIST, Florida                   Puerto Rico
SEAN CASTEN, Illinois                VACANCY
KATIE HILL, California
BEN McADAMS, Utah
JENNIFER WEXTON, Virginia
                                 ------                                

                 Subcommittee on Space and Aeronautics

                 HON. KENDRA HORN, Oklahoma, Chairwoman
ZOE LOFGREN, California              BRIAN BABIN, Texas, Ranking Member
AMI BERA, California                 MO BROOKS, Alabama
ED PERLMUTTER, Colorado              BILL POSEY, Florida
DON BEYER, Virginia                  PETE OLSON, Texas
CHARLIE CRIST, Florida               MICHAEL WALTZ, Florida
KATIE HILL, California
JENNIFER WEXTON, Virginia
                         
                         
                         C  O  N  T  E  N  T  S

                              May 8, 2019

                                                                   Page

Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Kendra Horn, Chairwoman, Subcommittee 
  on Space and Aeronautics, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     9
    Written Statement............................................    10

Statement by Representative Brian Babin, Ranking Member, 
  Subcommittee on Space and Aeronautics, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    11
    Written Statement............................................    13

Statement by Representative Eddie Bernice Johnson, Chairwoman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    14
    Written statement............................................    15

Statement by Representative Frank Lucas, Ranking Member, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    16
    Written statement............................................    16

                               Witnesses:

Mr. William H. Gerstenmaier, Associate Administrator, Human 
  Exploration and Operations Mission Directorate, NASA
    Oral Statement...............................................    18
    Written Statement............................................    21

Mr. Mark Sirangelo, Special Assistant to the Administrator, NASA
    Oral Statement...............................................    32
    Written Statement............................................    21

Dr. Patricia Sanders, Chair, Aerospace Safety Advisory Panel
    Oral Statement...............................................    34
    Written Statement............................................    36

Dr. Jonathan Lunine, Director, Cornell Center for Astrophysics 
  and Planetary Science; Co-Chair of the Former Committee on 
  Human Spaceflight, National Academies of Sciences, Engineering, 
  and Medicine
    Oral Statement...............................................    40
    Written Statement............................................    42

Mr. J. Walter Faulconer, President, Faulconer Consulting Group
    Oral Statement...............................................    47
    Written Statement............................................    49

Discussion.......................................................    70

             Appendix I: Answers to Post-Hearing Questions

Mr. William H. Gerstenmaier, Associate Administrator, Human 
  Exploration and Operations Mission Directorate, NASA...........    96

Mr. Mark Sirangelo, Special Assistant to the Administrator, NASA.    96

Dr. Patricia Sanders, Chair, Aerospace Safety Advisory Panel.....   111

Dr. Jonathan Lunine, Director, Cornell Center for Astrophysics 
  and Planetary Science; Co-Chair of the Former Committee on 
  Human Spaceflight, National Academies of Sciences, Engineering, 
  and Medicine...................................................   114

Mr. J. Walter Faulconer, President, Faulconer Consulting Group...   116

            Appendix II: Additional Material for the Record

Article submitted by Mr. William H. Gerstenmaier, Associate 
  Administrator, Human Exploration and Operations Mission 
  Directorate, NASA..............................................   122

 
                      KEEPING OUR SIGHTS ON MARS:
                     A REVIEW OF NASA'S DEEP SPACE
                        EXPLORATION PROGRAMS AND
                             LUNAR PROPOSAL

                              ----------                              


                         WEDNESDAY, MAY 8, 2019

                  House of Representatives,
             Subcommittee on Space and Aeronautics,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to notice, at 2:18 p.m., in 
room 2318 of the Rayburn House Office Building, Hon. Kendra 
Horn [Chairwoman of the Subcommittee] presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairwoman Horn. This hearing will come to order.
    Without objection, the Chair is authorized to declare 
recess at any time.
    Good afternoon, and welcome to today's hearing entitled, 
``Keeping our Sights on Mars: A Review of NASA's Deep Space 
Exploration Programs and Lunar Proposal.'' I want to thank our 
witnesses for being here and thank you all for joining us.
    So, today, we're examining NASA's deep space exploration 
programs--the capabilities and plans that will enable Americans 
to go beyond our low-Earth orbit neighborhood and into deep 
space. Successive NASA Authorization Acts have authorized a 
stepping-stone approach to human exploration, with the most 
recent, the NASA Transition Authorization Act of 2017, 
establishing Mars as the long-term goal. The law also directed 
NASA to prepare a human exploration roadmap.
    In hearings from the last Congress to the present, Members 
of the Subcommittee and Full Committee have repeatedly asked 
for this roadmap, only to receive a response--in response a 
high-level strategy that was delivered over a year and a half 
late. I refer to this roadmap because, as the authorizing 
Committee, it is our responsibility to the American taxpayers 
to ensure that human space exploration plans and budget 
requests are based on sound analyses and clear goals and 
objectives.
    We support NASA and we want it to succeed, so I am 
concerned that as we prepare to reauthorize NASA again, we have 
many unanswered questions about the future of our Nation's 
human space exploration program: How and when will we get to 
Mars? What technologies and systems are needed to get us there? 
What are the interim destinations and precursor missions that 
scientists and engineers have determined to be the most 
effective means to get us there? What is the future of the 
International Space Station (ISS), and what are the priorities 
to enable an eventual Mars mission? How long should it be 
operated, and what follow--and what will follow in low-Earth 
orbit?
    Mars is the horizon goal, and I want Americans to be the 
first to set foot on the red planet. But make no mistake about 
it, there's an elephant in the room, and it's the Moon. In the 
absence of an integrated roadmap, the Administration decided 
that the Moon is the place to go with humans, that we should go 
there sustainably, and that--and be there permanently, though 
not necessarily with humans. And, as of just 6 weeks ago, the 
Vice President said that we need to get there fast, in 5 years 
rather than 9 years.
    While I can't argue with the desire to invigorate our human 
exploration efforts and find near-term milestones to 
demonstrate success, the lack of planning evident so far, is no 
way to run our Nation's human space exploration program. The 
2024 missive left NASA in a tizzy, scrambling to develop a plan 
and hastening to pull together a budget amendment that still 
has not been delivered to Congress, and upending groundwork 
with international partners on future exploration goals.
    What are the primary goals and objectives for going to the 
Moon? Are they geopolitical, scientific, commercial, or as 
risk-reduction efforts for an eventual Mars mission? On which 
goal is NASA basing its architecture and mission decisions? 
Simply saying ``yes'' to all of them is not an adequate way to 
determine our priorities. And how will we get there by 2024? 
NASA's solution? Get the private sector to do it and do it 
fast. Whether or not that will be through cost-plus or firm-
fixed-price contracts, which are not typically used for 
development projects, whether or not contracts would involve a 
cost-sharing and at what level NASA oversight would be involved 
have not been made clear.
    While public-private partnerships have a role to play, 
their use in human spaceflight programs has not yet been 
demonstrated. Commercial crew providers were awarded contracts 
in 2014 with an initial plan for certification by 2017. It's 
2019, and while they're making good progress, we're still 
hitchhiking rides with the Russians to low-Earth orbit. Not 
only that, under those contracts, it's the companies, not NASA, 
that decide what information the public should be entitled to 
should something go wrong. We all know that spaceflight is 
risky, and things do go wrong. So let me be clear. I absolutely 
support America's robust, growing, and innovative space 
industry. A United States human space exploration program that 
leads the world should be leveraging private-sector innovation. 
The question is how.
    At present, we have a White House directive to land humans 
on the Moon in 5 years but no plan and no budget details on how 
to do so and no integrated human space exploration roadmap 
laying out how we can best achieve the horizon goal, Mars. In 
essence, we're flying blind.
    I'll close with this thought. I believe all of us--
Republicans and Democrats alike--share the goal of a successful 
and ambitious human space exploration program that enables the 
United States, in concert with its international partners, to 
explore destinations in deep space such as the Moon and Mars. 
Such ambitious civil space goals are not only inspiring but 
essential to enabling discovery, providing benefits to society, 
and sustaining U.S. leadership in the peaceful uses of outer 
space.
    The Space Exploration Initiative of 1989 and the 2004 
Vision for Space Exploration were unfulfilled attempts to 
achieving deep space exploration goals to go to the Moon and 
Mars. Will our efforts this time be an opportunity lost or an 
opportunity gained? If they are to be an opportunity gained, we 
will need an integrated and stable plan, adequate and sustained 
resources, and a commitment that transcends political party and 
election timelines to get us there.
    Thank you.
    [The prepared statement of Chairwoman Horn follows:]

    Good afternoon and welcome. I'd like to extend a special 
welcome to our witnesses. Thank you for being here.
    Today, we're examining NASA's deep space exploration 
programs-the capabilities and plans that will enable Americans 
to go beyond our low-Earth orbit neighborhood and into deep 
space.
    Successive NASA Authorization Acts have authorized a 
stepping-stone approach to human exploration, with the most 
recent-the NASA Transition Authorization Act of 2017-
establishing Mars as the long-term goal. The law also directed 
NASA to prepare a Human Exploration Roadmap. In hearings from 
the last Congress to the present, Members of the Subcommittee 
and Full Committee have repeatedly asked for this Roadmap, only 
to receive in response a high-level strategy that was delivered 
over a year and a half late. I refer to this Roadmap, because 
as the Authorizing Committee, it is our responsibility to the 
American taxpayers to ensure that human space exploration plans 
and budget requests are based on sound analyses and clear goals 
and objectives. We support NASA and we want it to succeed.
    So I am concerned that as we prepare to reauthorize NASA 
again, we have many unanswered questions about the future of 
our nation's human space exploration program:
    <bullet> LHow and when will we get to Mars?
    <bullet> LWhat technologies and systems are needed to get 
us there?
    <bullet> LWhat are the interim destinations and precursor 
missions that scientists and engineers have determined to be 
the most effective means to get us there?
    <bullet> LWhat is the future of the International Space 
Station and what are the priorities for it to enable an 
eventual Mars mission? How long should it be operated, and what 
will follow it in low-Earth orbit?
    Mars is the horizon goal and I want Americans to be the 
first to set foot on the Red Planet. But make no mistake about 
it. There's an elephant in the room, and it's the Moon.
    In the absence of an integrated Roadmap, the Administration 
has decided that the Moon is the place to go with humans, that 
we should go there sustainably, and be there permanently, 
though not necessarily with humans. And, as of just 6 weeks 
ago, the Vice President said we need to get there fast-in 5 
rather than 9 years. While I can't argue with the desire to 
invigorate our human exploration efforts and find near-term 
milestones to demonstrate success, the lack of planning evident 
so far, is no way to run our nation's human space exploration 
program. The 2024 missive left NASA in a tizzy-scrambling to 
develop a plan and hastening to pull together a budget 
amendment that still have not been delivered to Congress; and, 
upending groundwork with international partners on future 
exploration goals.
    What are the primary goals and objectives for going to the 
Moon? Are they geopolitical, scientific, commercial, or as 
risk-reduction efforts for an eventual Mars mission? On which 
goal is NASA basing its architecture and mission decisions? 
Simply saying ``yes'' to all of them is not an adequate way to 
determine priorities. And how will we get there by 2024? NASA's 
solution? Get the private sector to do it and do it fast. 
Whether or not that will be through cost-plus or firm-fixed-
price contracts, which are not typically used for development 
projects, whether or not contracts would involve cost-sharing 
and what level of NASA oversight would be involved have not 
been made clear.
    While public-private partnerships have a role to play, 
their use in human spaceflight programs has not yet been 
demonstrated. Commercial crew providers were awarded contracts 
in 2014 with an initial plan for certification by 2017. It's 
2019 and while they're making good progress, we're still hitch-
hiking with the Russians to low-Earth orbit. Not only that, 
under those contracts, it's the companies, not NASA, that 
decide what information to make public should something go 
wrong. Spaceflight is risky, and things do go wrong.Let me be 
clear. I support America's robust, growing, and innovative 
space industry. A United States human space exploration program 
that leads the world should be leveraging private sector 
innovation. The question is how.
    At present, we have a White House directive to land humans 
on the Moon in 5 years, but no plan or no budget details on how 
to do so, and no integrated Human Exploration Roadmap laying 
out how we can best achieve the horizon goal-Mars. In essence, 
we're flying blind.
    I'll close with this thought. I believe all of us-
Republicans and Democrats alike-share the goal of a successful 
and ambitious human space exploration program that enables the 
United States, in concert with international partners, to 
explore destinations in deep space such as the Moon and Mars. 
Such ambitious civil space goals are not only inspiring but 
essential to enabling discovery, providing benefits to society, 
and sustaining U.S. leadership in the peaceful uses of outer 
space. The Space Exploration Initiative of 1989 and the 2004 
Vision for Space Exploration were unfulfilled attempts at 
achieving deep space exploration goals to go to the Moon and 
Mars. Will our efforts this time be an opportunity lost or an 
opportunity gained? If they are to be an opportunity gained, we 
will need an integrated and stable plan, adequate and sustained 
resources, and a commitment that transcends political party and 
election timelines to get us there.
    Thank you.

    Chairwoman Horn. All right. The Chair now recognizes 
Ranking Member Babin for an opening statement.
    Mr. Babin. Thank you, Madam Chair. We appreciate it. And I 
want to say thank you to all you witnesses that are here today. 
I'm looking forward to hearing your testimonies.
    As this is the first formal hearing of the Space and 
Aeronautics Subcommittee of the 116th Congress, I would like to 
formally welcome you to the Committee, and I look forward to 
working with you, Chairwoman Horn, on one of the most exciting 
issues that we deal with here in Congress, and that is space 
exploration.
    This is not only one of the most exciting issues, but it is 
also one of the most exciting times for space exploration. We 
have a renewed sense of urgency and purpose that is coupled 
with focus, leadership, and enthusiasm. I am excited to be 
involved in our Nation's space enterprise at this moment in our 
history.
    We have a unique opportunity before us. We have an 
Administration that put forth a bold direction, and we have an 
agency that stands ready to meet that challenge. We've seen 
proposals to reinvigorate NASA before, but we are uniquely 
positioned at this moment to capitalize on the investments made 
over the last 2 decades.
    Unlike President Kennedy's challenge to put a man on the 
Moon within the decade, we have already made the investments in 
the systems that will turn that challenge into a reality. And 
we now have robust centers and infrastructure, an eager 
workforce, a modern industrial base, a hungry commercial 
sector, a vibrant space market, and years of hardware 
development already under our belts. We are in the final stages 
of developing the Space Launch System (SLS). We've already 
conducted a test flight of the Orion capsule, and ground 
systems at the Kennedy Space Center are being built as we 
speak. The President has provided direction, focus, and 
enthusiasm, which will only help us in making continued 
progress.
    And that isn't to say that we don't have work to do. 
Specifically, we need a clear plan and a realistic budget 
proposal. We need to be cautious about developing a plan that 
is overly ambitious or too costly, and we need to ensure that 
OMB sufficiently funds the plan in subsequent budget requests.
    We must develop next-generation spacesuits and human-class 
landers, scale up in-space propulsion and life support systems, 
and properly mitigate radiation hazards. We must also develop 
these capabilities in an extensible manner that enables an 
evolvable architecture that can explore not only the Moon, but 
also Mars and beyond. And as the National Academy's Pathways to 
Exploration report recommended, NASA should develop 
technologies that feedforward from one mission to the next and 
reduce or eliminate the development of dead-end technologies.
    Furthermore, Space Policy Directive 1 directed NASA to 
``Lead an innovative and sustainable program of exploration 
with commercial and international partners to enable human 
expansion across the solar system and to bring back to Earth 
new knowledge and new opportunities.'' Developing a plan that 
takes into account both the principles of extensibility and 
sustainability will be very challenging and will require NASA 
to make difficult decisions going forward, but I believe that 
NASA is well up to this task.
    We must also be mindful of artificial schedule pressures. 
The Aerospace Safety Advisory Panel has noted in several 
reports that it's important to set challenging but achievable 
schedules and not allow undue schedule pressure to lead to 
decisions that adversely impact safety and mission assurance. 
Maintaining a balance between setting challenging yet 
achievable goals and taking prudent steps to ensure safe 
operations will certainly need to be addressed in any future 
plans.
    Humanity will commit to the task of exploring the cosmos. 
The only real question is whether the United States will be the 
one to lead in that effort. I, for one, will do everything that 
I can to ensure that this happens.
    Before I yield back my time, I would like to make one final 
observation. The Administration is still finalizing their lunar 
plans, and while this hearing is very helpful, and I realize 
that NASA previously committed to delivering a plan to the 
Committee by now, holding the hearing without new details does 
seem premature. I would respectfully recommend that we hear 
from NASA once this plan is finalized.
    And so, with that, I'll yield back. Thank you.
    [The prepared statement of Mr. Babin follows:]

    Thank you, Chair Horn. As this is the first formal hearing 
of the Space and Aeronautics Subcommittee in the 116th 
Congress, I would like to formally welcome you to the 
Committee. I look forward to working with you on one of the 
most exciting issues we deal with here in Congress--space 
exploration.
    This is not only one of the most exciting issues, but it is 
also one of the most exciting times for space exploration. We 
have a renewed sense of urgency and purpose that is couple with 
focus, leadership, and enthusiasm. I am excited to be involved 
in our nation's space enterprise at this moment in history.
    We have a unique opportunity before us. We have an 
Administration that put forth a bold direction, and we have an 
agency that stands ready to meet that challenge. We've seen 
proposals to reinvigorate NASA before, but we are uniquely 
positioned at this moment to capitalize on the investments made 
over the last two decades.
    Unlike President Kennedy's challenge to put a man on the 
Moon within the decade, we have already made the investments in 
the systems that will turn that challenge into reality. We now 
have robust centers and infrastructure, an eager workforce, a 
modern industrial base, a hungry commercial sector, a vibrant 
space market, and years of hardware development under our belt. 
We are in the final stages of developing the Space Launch 
System, we've already conducted a test flight of the Orion 
capsule, and ground systems at the Kennedy Space Center are 
being built as we speak. The President has provided direction, 
focus, and enthusiasm, which will only help us continue making 
progress.
    That isn't to say that we don't have work to do. 
Specifically, we need a clear plan and a realistic budget 
proposal. We need to be cautious about developing a plan that 
is overly ambitious or costly, and we need to ensure that OMB 
sufficiently funds the plan in subsequent budget requests.
    We must develop next generation space suits and human-class 
landers, scale-up in-space propulsion and life support systems, 
and properly mitigate radiation hazards. We must also develop 
these capabilities in an extensible manner that enables an 
evolvable architecture that can explore not only the Moon, but 
also Mars, and beyond. As the National Academy's ``Pathways to 
Exploration'' report recommended, NASA should develop 
technologies that feed-forward from one mission to the next and 
reduce or eliminate the development of ``dead-end'' 
technologies.
    Furthermore, Space Policy Directive 1 directed NASA to `` 
`[l]ead an innovative and sustainable program of exploration 
with commercial and international partners to enable human 
expansion across the solar system and to bring back to Earth 
new knowledge and opportunities.'' Developing a plan that takes 
into account both the principles of extensibility and 
sustainability will be challenging and require NASA to make 
difficult decisions going forward, but I believe NASA is up to 
the task.
    We must also be mindful of artificial schedule pressure. 
The Aerospace Safety Advisory Panel has noted in several 
reports that it is important to set challenging, but achievable 
schedules and not allow undue schedule pressure to lead to 
decisions that adversely impact safety and mission assurance. 
Maintaining a balance between setting challenging yet 
achievable goals and taking prudent steps to ensure safe 
operations will certainly need to be addressed in any future 
plans.
    Humanity will commit to the task of exploring the cosmos. 
The only real question is whether the United States will lead 
in that effort. I, for one, will do everything I can to ensure 
that we do.
    Before I yield back my time, I would like to make one final 
observation. The Administration is still finalizing their Lunar 
plans. While this hearing is helpful, and I realize NASA 
previously committed to delivering a plan to the Committee by 
now, holding the hearing without new details seems premature. I 
would respectfully recommend that we hear from NASA once the 
plan is finalized.
    Thank you.

    Chairwoman Horn. Thank you very much. Dr. Babin, I 
appreciate that.
    And the Chair now recognizes Chairwoman Johnson for her 
opening statement.
    Chairwoman Johnson. Thank you very much, and good 
afternoon. I want to join the Chairwoman and Ranking Member in 
welcoming our witnesses to today's hearing, and I look forward 
to your testimony. I'll try to be brief in my remarks.
    It is now more than 6 weeks since Vice President Pence 
announced that NASA was being directed by the President to 
undertake a crash program to land astronauts on the Moon within 
the next 5 years. Over that 6-week period, the President has 
been uncharacteristically silent, making no public statements 
or tweets in support of his lunar initiative.
    NASA, for its part, has provided no specifics on either the 
plan or the required budget for the proposed accelerated Moon--
well, this must be a sheet--I hope that when NASA delivers that 
plan and its revised budget to Congress, it will also provide a 
compelling rationale for the proposed crash program that 
justifies the additional resources that will be required to 
meet the President's arbitrary deadline. Because, as Chair of 
the Science Committee, I cannot look at NASA's proposal in 
isolation, nor can my colleagues on the Appropriations 
Committee.
    I just came from a hearing on the National Science 
Foundation's (NSF's) Fiscal Year 2020 budget, where we heard 
that the President's request would cut NSF's budget by $1 
billion. As you know, NSF is one of the Nation's premier 
research agencies, funding research across a range of important 
scientific disciplines. That billion-dollar cut will have 
serious negative impacts on major research areas if enacted.
    A week ago, we had a hearing on the NOAA (National Oceanic 
and Atmospheric Administration) budget request, and the news 
was similar: The President's request would cut NOAA's budget by 
$1 billion. And 3 weeks before that, we heard that the 
President's request would cut the discretionary budget of the 
National Institute of Standards and Technology by more than 30 
percent or almost $300 million. Finally, the Department of 
Energy's research programs would be cut by $4.5 billion. So if 
Congress is to increase NASA's budget simply to speed up a 
lunar landing relative to what was already planned, Congress 
will have to weigh the opportunity costs of doing so.
    That said, I want to make it clear that I do not support 
the alternative of cannibalizing NASA's other important 
research activities just to speed up the human lunar 
exploration program.
    On Monday, Ranking Member Lucas and I visited NASA's 
Goddard Space Flight Center and heard about all the important 
space and Earth science research activities being undertaken 
there. We should be investing more in such inspiring and 
consequential research rather than cutting it, as is proposed 
in NASA's 2020 request.
    As I close, I want to reiterate my support for a strong, 
forward-leaning human and robotic exploration program. I 
believe that human missions to the Moon and Mars, as well as 
robotic exploration, will continue to inspire, as it did when 
Americans first walked on the Moon. But we need to get it right 
as we pursue such a program, and we need to strike the right 
balance across all of our important national research 
priorities. Thus, I expect that this Committee will need to 
have NASA appear before us again once it provides us with the 
information it has promised.
    And with that, I again want to welcome our witnesses, and I 
yield back.
    [The prepared statement of Chairwoman Johnson follows:]

    Good afternoon. I want to join the Chairwoman in welcoming 
our witnesses to today's hearing, and I look forward to your 
testimony.
    I will be brief in my remarks. It is now more than six 
weeks since Vice President Pence announced that NASA was being 
directed by the President to undertake a crash program to land 
astronauts on the Moon within the next five years. Over that 
six week period, the President has been uncharacteristically 
silent, making no public statements or tweets in support of his 
lunar initiative. NASA, for its part, has provided no specifics 
on either the plan or the required budget for the proposed 
accelerated Moon program, saying it hopes to have something for 
Congress ``soon''.
    I hope so. And I hope that when NASA delivers the plan and 
revised budget to Congress, it will also provide a compelling 
rationale for the proposed crash program that justifies the 
additional resources that will be required to meet the 
President's arbitrary deadline. Because as Chair of the Science 
Committee, I cannot look at NASA's proposal in isolation, nor 
can my colleagues on the appropriations committee.
    I just came from a hearing on the National Science 
Foundation's FY 2020 budget, where we heard that the 
President's request would cut NSF's budget by a billion 
dollars. As you know, NSF is one of the nation's premier 
research agencies, funding research across a range of important 
scientific disciplines. That billion dollar cut will have 
serious negative impacts on major research areas if enacted. A 
week ago, we had a hearing on the NOAA budget request, and the 
news was similar: the President's request would cut NOAA's 
budget by a billion dollars. And three weeks before that, we 
heard that the President's request would cut the discretionary 
budget of the National Institute of Standards and Technology by 
more than 30 percent, or almost $300 million. Finally, the 
Department of Energy's research programs would be cut by $4.5 
billion.
    So if Congress is to increase NASA's budget simply to speed 
up a lunar landing relative to what was already planned, 
Congress will have to weigh the opportunity costs of doing so.
    That said, I want to make it clear that I do not support 
the alternative of cannibalizing NASA's other important 
research activities just to speed up the human lunar 
exploration program. On Monday, Ranking Member Lucas and I 
visited NASA's Goddard Spaceflight Center and heard about all 
the important space and Earth science research activities being 
undertaken there. We should be investing more in such inspiring 
and consequential research, rather than cutting it as is 
proposed in NASA's FY 2020 request.
    As I close, I want to reiterate my support for a strong, 
forward-leaning human and robotic exploration program. I 
believe that human missions to the Moon and Mars, as well as 
robotic exploration, will continue to inspire as it did when 
Americans first walked on the Moon. But we need to get it right 
as we pursue such a program, and we need to strike the right 
balance across all our important national research priorities. 
Thus, I expect that this Committee will need to have NASA 
appear before us again once it provides us with the information 
it has promised us.
    With that, I again want to welcome our witnesses, and I 
yield back.

    Chairwoman Horn. Thank you, Madam Chairwoman.
    The Chair now recognizes Ranking Member and fellow 
Oklahoman Mr. Lucas.
    Mr. Lucas. Thank you, Chair, and fellow Okie.
    Two days ago, I toured the Goddard Spaceflight Center with 
Chairwoman Johnson and Administrator Bridenstine and Director 
Scolese. The enthusiasm and focus of the NASA family is 
contagious.
    And, as I said at our last hearing, our Nation's space 
program is a source of pride. It exemplifies the greatest 
aspects of our country: The pursuit of knowledge, heroism, 
technical excellence, perseverance, and the intrepid spirit to 
chart a course into the unknown. Exploration is in our DNA, and 
no other nation embraces that gift more than the United States.
    NASA and this Administration are harnessing that gift and 
focusing our efforts to pioneer space. By continuing the 
investments made over the last 2 decades, we are progressing 
toward our national goal to send Americans to the Moon, Mars, 
and beyond.
    The Vice President challenged the Nation to return 
astronauts to the Moon by 2024. It's an exciting and ambitious 
goal that will ultimately establish a long-term presence on the 
Moon, allowing us to explore its resources and conduct 
pioneering scientific research. I look forward to reviewing a 
proposal to achieve that goal. NASA, the Administration, 
Congress, the private sector, and ultimately the American 
people will all have a role to play in making that happen.
    As we move forward, we would all benefit from remembering 
the lessons of previous proposals. The transition from Apollo 
to Shuttle, Space Station Freedom, the proposal to cancel the 
International Space Station program, the Space Exploration 
Initiative, the Vision for Space Exploration, the Constellation 
cancellation, and the Asteroid Retrieval Mission all provide 
unique lessons.
    We should also realize that we can no longer take America's 
preeminence in space for granted. Other nations also have 
exploration plans. Urgency is now required to maintain our 
leadership.
    NASA must provide a detailed plan for this next phase of 
exploration. The Administration and OMB (Office of Management 
and Budget) must provide a realistic funding proposal, and 
Congress must approve and appropriately fund the plan. This is 
not impossible, but it will require tough decisions, and, as 
Americans, we are up to that challenge.
    And since this is our first hearing of this Subcommittee, 
Chair, I think there's a video that staff has that really kind 
of summarizes all this. I'd like to ask that the staff play a 
brief video in my remaining time.
    [Video shown.]
    Mr. Lucas. Thank you, Madam Chairman. Sometimes we need to 
remember where we came from and where we are to be able to go 
forward. I yield back.
    [The prepared statement of Mr. Lucas follows:]

    Two days ago, I toured the Goddard Spaceflight Center with 
Chairwoman Johnson, Administrator Bridenstine, and Director 
Scolese. The enthusiasm and focus of the NASA family is 
contagious. As I said at our last hearing, our Nation's space 
program is a source of pride. It exemplifies the greatest 
aspects of our country: the pursuit of knowledge; heroism; 
technical excellence; perseverance; and the intrepid spirit to 
chart a course into the unknown. Exploration is in our DNA, and 
no other nation embraces that gift more than the United States.
    NASA, and this Administration, are harnessing that gift and 
focusing our efforts to pioneer space. By continuing the 
investments made over the last two decades, we are progressing 
towards our national goal to send Americans to the Moon, Mars, 
and beyond.
    The Vice President challenged the Nation to return 
astronauts to the Moon by 2024. It's an exciting and ambitious 
goal that will ultimately establish a long-term presence on the 
Moon, allowing us to explore its resources and conduct 
pioneering scientific research. I look forward to reviewing a 
proposal to achieve that goal. NASA, the Administration, 
Congress, the private sector, and ultimately the American 
people, all have a role to play in making that happen.
    As we move forward, we would all benefit from remembering 
the lessons of previous proposals. The transition from Apollo 
to Shuttle, Space Station Freedom, the proposal to cancel the 
International Space Station program, the Space Exploration 
Initiative, the Vision for Space Exploration, the Constellation 
Cancellation, and the Asteroid Retrieval Mission, all provide 
unique lessons.
    We should also realize that we can no longer take America's 
preeminence in space for granted. Other nations are also have 
exploration plans. Urgency is now required to maintain our 
leadership.
    NASA must provide a detailed plan for this next phase of 
exploration. The Administration and OMB must provide a 
realistic funding proposal. And Congress must approve and 
appropriately fund the plan. This is not impossible, but it 
will require tough decisions. As Americans, we are up to that 
challenge.
    I'd like to now ask the staff to play a brief video for my 
remaining time, which captures the vision and work ahead for 
NASA.Thank you.

    Chairwoman Horn. Thank you, Mr. Lucas. That was 
inspirational. I think it's clear that this Committee, there's 
a lot of agreement on both sides that we are fully in support, 
but we have some unanswered questions, and so I want to again 
thank the witnesses for being here today.
    And at this time I'm going to begin with introduction and 
allow you all your opening statements.
    Our first witness today is Mr. William Gerstenmaier, 
Associate Administrator for the Human Exploration and 
Operations Mission Directorate at NASA. Mr. Gerstenmaier 
provides strategic direction for all aspects of NASA's human 
exploration of space and cross-agency space support functions 
of the space communications and space launch vehicles.
    Prior to his current position, Mr. Gerstenmaier served as 
the Manager for the International Space Station program. He 
also served as the Associate Administrator for the Space 
Operations Mission Directorate during the completion of the 
Space Station.
    Mr. Gerstenmaier holds a bachelor of science in 
aeronautical engineering from Purdue University and a master of 
science degree in mechanical engineering from the University of 
Toledo. Welcome, Mr. Gerstenmaier.
    OK. I apologize. I'm going to do the whole introductions 
and then I'll turn it over to you all.
    Our second witness today is Mr. Mark Sirangelo, Special 
Assistant to the NASA Administrator, who is developing plans 
for deep space exploration. In this role, he will manage the 
programs to develop the Gateway, human-rated lander, and 
surface systems needed for a lunar program. Previously, Mr. 
Sirangelo headed Sierra Nevada Corporation's Space Systems, a 
producer of satellites, space transportation vehicles, 
propulsion systems, and space subsystems.
    Mr. Sirangelo holds a bachelor of science and a master's of 
business administration and a doctorate. Welcome, Mr. 
Sirangelo. Thank you for being here today.
    Our third witness is Dr. Patricia Sanders. We're going to 
go a little bit out of order from where you are. I promise, Dr. 
Lunine, I'll get back to you. I haven't forgotten about you.
    Dr. Patricia Sanders, Chair of the Aerospace Safety 
Advisory Panel and an independent aerospace consultant. 
Previously, Dr. Sanders served as Executive Director of the 
Missile Defense Agency. She has also previously held positions 
in the Office of the Secretary of Defense, Air Force 
Operational Test Center, and the U.S. Space Command.
    Dr. Sanders is a fellow of the American Institute of 
Aeronautics and Astronautics and has received the three 
Presidential Rank Awards for executive achievements.
    Dr. Sanders received her doctorate in mathematics from 
Wayne State University. Welcome, Dr. Sanders. We're glad you're 
here.
    Our fourth witness is Dr. Jonathan Lunine--see, I didn't 
forget--Director of the Cornell Center for Astrophysics and 
Planetary Science. Dr. Lunine is the David Baltimore 
Distinguished Visiting Science--Scientist at NASA's Jet 
Propulsion Laboratory. Dr. Lunine works on the Cassini mission 
and the James Webb Space Telescope and is a coinvestigator on 
the Juno mission. He is also a member of the National Academy 
of Sciences where he has been involved in numerous advisory and 
strategic planning committees, including Pathways to 
Exploration: Rationales and Approaches for a U.S. Program of 
Human Space Exploration, which he co-chaired in 2014.
    Dr. Lunine holds a bachelor's degree in physics and 
astronomy from the University of Rochester and a master's and 
doctorate degrees in planetary science from the California 
Institute of Technology. Welcome, Dr. Lunine.
    And our fifth and final witness is Mr. Walter Faulconer, 
President of Faulconer Consulting Group, which provides 
strategic planning and business management services. Mr. 
Faulconer is currently a member of the NOAA Science Advisory 
Board and Executive Secretary for the Department of Defense 
Strategic Capabilities Office Advisory Group. He previously 
held the position of Director of Business Development for Space 
Transportation at Lockheed Martin. He also served as a Director 
of Strategic Planning and Development for Space Systems 
Company.
    Mr. Faulconer holds a bachelor's from Florida Institute of 
Technology and master's degree from the University of Southern 
California. Welcome, Mr. Faulconer.
    As our witnesses should know, you each have--will each have 
5 minutes for your spoken testimony. Your written testimony 
will also be included in the record for the hearing. When you 
have completed your spoken testimony, we'll begin with 
questions. Each Member will have 5 minutes for questions. And 
we will start today with Mr. Gerstenmaier.

            TESTIMONY OF MR. WILLIAM H. GERSTENMAIER,

           ASSOCIATE ADMINISTRATOR, HUMAN EXPLORATION

                      AND OPERATIONS, NASA

    Mr. Gerstenmaier. Thank you very much for allowing me to 
testify on behalf of the NASA team. I think, as you saw on the 
video, this is an amazing time in human spaceflight.
    We have more hardware in development than at any time in 
the history of NASA. There are three different capsule designs 
in work: Starliner, Dragon 2, and Orion. Multiple flight 
vehicles exist for each of these designs, and the purpose of 
the designs, either for low-Earth orbit or for deep space, are 
very different.
    There's also a new winged commercial cargo vehicle also in 
work for the International Space Station. We also have a large 
heavy lift launch vehicle in work. The first launch vehicle 
core is scheduled for completion this year for further testing 
and assembly. The second launch vehicle core is also under 
construction. Today, you can go, see, and touch the vehicles 
that will return crews to the Moon and enable research and 
technology development that will allow us to go to Mars.
    Further, we have an amazing international research facility 
in low-Earth orbit. We've had crews in space continuously since 
October 2000, almost 19 years. The International Space Station 
is allowing commercial industry to experiment with revenue 
concepts in low-Earth orbit, NASA to test the next generation 
of life support systems, NASA to understand how to keep crews 
healthy for long durations in deep space, and perform 
fundamental research in a variety of fields. All of this ISS 
research ultimately supports improving life here on Earth.
    With all this activity and work, there's a new excitement 
in the space workforce. It is very timely and fitting today 
that we have this hearing entitled, ``Keeping Our Sights on 
Mars: A Review of NASA's Deep Space Exploration Programs and 
Lunar Proposal.'' Ultimately, all of these hardware development 
efforts are tied together, and they all support building 
systems that will allow us to move human presence into the 
solar system. By taking the long view, we can keep the 
individual activities linked. We do not have time or funds to 
build unique one-of-a-kind systems. We need to build systems 
that can improve technical knowledge and can be used to support 
multiple objectives.
    The challenge of Mars with humans is large and requires all 
of us with commercial industry, universities, the public, 
international partners to work together to make this goal a 
reality. Interoperability standards being developed such as the 
international docking standard will allow all to participate in 
this goal.
    Recently, we were challenged to return to the surface of 
the Moon with humans in 2024. Having a sense of real urgency is 
critical. This can help focus our efforts and create a 
framework for timely decisions. Keeping the long view but 
creating the urgency for near-term objectives can create a 
strong framework for us to work together.
    NASA's building off the systems already in work, as 
mentioned earlier. We will select partners to develop the first 
element of Gateway, the power and propulsion element, by this 
summer. We will select partners to begin studying the lunar 
descent systems, transfer vehicles, and investigate refueling 
options. We have a synopsis out for review of the human lunar 
lander system. All--some of these systems for the Moon such as 
the ascent vehicle can be used for Mars. The transfer vehicles 
and power systems all have applications toward Mars.
    Learning to operate reusable systems at Gateway and 
navigate around the Moon are all helping us to learn how to 
keep crews safe on journeys toward Mars. The Gateway itself can 
help us to understand Mars transit vehicle requirements. The 
Moon is a great proving ground, a great place to learn for deep 
space systems that are necessary for Mars.
    We are taking the next generation of space engineers, and 
we are training them for the future. The risk and challenges 
are huge, but so are the gains. The challenges that we face all 
help to improve life here on Earth. The recycling systems on 
ISS needed for deep space travel have applications here on 
Earth. We must never think that tests or operations are easy or 
routine. We will stay vigilant with a sense of urgency. We will 
look forward to continuing to work with this Committee to 
achieve amazing things in space.
    This Committee has been tremendously supportive in the past 
and often asks for concrete plans for human exploration. We are 
ready to finalize those plans and work together with a sense of 
urgency. Working together, we can accomplish amazing things.
    I look forward to your questions and to the dialog.
    [The prepared statement of Mr. Gerstenmaier and Mr. 
Sirangelo follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairwoman Horn. Thank you, Mr. Gerstenmaier.
    Mr. Sirangelo.

                TESTIMONY OF MR. MARK SIRANGELO,

          SPECIAL ASSISTANT TO THE ADMINISTRATOR, NASA

    Mr. Sirangelo. Good afternoon. Thank you for having me.
    It's really an amazing time to be able to come here and 
talk about America's deep space program. It's been 50 years 
since we first went to the Moon and 47 years since we've been 
back. I believe it's time we take another step. That step will 
be the first on a renewal that we will have not only to the 
Moon but to Mars and beyond, and from NASA's perspective the 
next step will be taken by the first American woman on the 
Moon.
    We will return to the Moon this time not just to visit but 
to stay. After building on our success in low-Earth orbit, 
we'll be combining the expertise of NASA, along with our 
commercial partners, our universities, our laboratories, and 
our international partners to develop the exploration 
capabilities we'll need and the architecture that will get us 
back to the lunar surface as safely and as quickly as possible.
    But there's more to that. We will create new jobs. We will 
create new economic opportunities. We will motivate generations 
of young people. The science and technology we'll develop along 
the way will improve our life on Earth.
    Even though our eyes are on 2024, we're not beginning 
there. This year, coming up in the next few months, we will 
start with a small series of commercial robotic missions--
precursor missions, we call them--to the Moon. We will use 
these landers and robots and technology to conduct science 
across the lunar surface.
    Throughout my long history in the space industry, I've been 
fortunate to lead teams that have participated in hundreds of 
space missions, including missions to multiple planets, 
asteroid, the sun, and of course the Moon. Whenever I get asked 
questions, most of the time I get asked about the shiny 
spaceships or the rockets or the technology, and that's a 
wonderful thing to do, and as a technologist, as a builder, 
it's a--it is wonderful to talk about those.
    But today, I'm here is a futurist and now as a proud new 
member of the NASA team and as an American. I want to put the 
technologies aside and talk a little bit about the why. Why go 
back to the Moon? Why now? Why this expedited effort? Why 
America? Just as Apollo inspired previous generations, NASA 
today is uniquely positioned to continue that inspiration to 
inspire the future generations, we already work with over 60 
universities and have created thousands of internships which 
have turned--sparked thousands of dreams, but we're not 
satisfied. There's more that we can do.
    By bringing the capabilities of our country together to 
return to the Moon and on to Mars we'll demonstrate to the 
young people of this country and around the world the power of 
dreaming big. We hope to create an unparalleled example that 
humankind can do when it comes together to do an uncommon task 
for the common good.
    These next generations may or may not take the power of 
this lesson to space or to the space industry, but they will 
take them somewhere. In my view, the biggest legacy of the 
Apollo program was not the rocks that we brought back but it 
was the people that we inspired, generations of those people, 
some sitting in this room today that went on to make America a 
better place.
    The Moon is a treasure chest of science. The lunar samples 
returned by the Apollo program dramatically changed our view, 
but it's just the beginning. We believe the South Pole, which 
is our first destination, holds millions of tons of water ice. 
That ice represents power, it represents fuel, it represents 
scientific discoveries. As we go further into space, it's going 
to become even more necessary for us to learn how to live in 
space without the connection to Earth. We need to learn to do 
this, and the Moon is a good place to make it happen.
    As was said earlier today, the exploration is in our DNA. 
The ability for humans to want to go to places we haven't been 
has been around as long as humans have been around not only 
through the oceans, underneath the oceans, across the lands, 
but now into vast regions of space. It's really part of our 
psychological makeup. But more importantly, it fuels our soul. 
You don't have to go any further than just see the faces of the 
young kids who come to visit NASA or to know that the Air and 
Space Museum is the most visited museum in the world.
    We believe the Moon is a test bed, a test bed for learning 
and a test bed for Mars that provides opportunities to 
demonstrate new technologies that are necessary for those 
missions. But along this path we're also going to be creating a 
new revolution, an economic revolution. Generations past had 
the Industrial Revolution, the computing revolution, the 
internet revolution, all of which helped make the U.S. a leader 
in the world. The next revolution in our view is going to be 
happening in space.
    Finally, as we approach this Memorial Day, I'd like to take 
a moment to reflect on all those who have given their lives for 
us, and today, everywhere in the world, they're standing watch 
for us. If you ask those people who are doing that why they're 
doing it, most of them will say to protect their families, to 
protect their homes, to protect their country, and I think one 
more thing they'd say is to protect the American way of life. 
As part of that, I believe that American way of life not only 
has all the things that we live for and exist every day, but 
it's also an important part to understand that it gives us the 
chance to dream, to dream big, and to chase those dreams. I 
know I had this chance, and it brought me to this hearing and 
gave me a chance to touch the stars, and we want to make that 
happen for a lot of other young people in the world.
    Even now, 50 years later, people around the world would 
point to the Apollo landings as one of the most important 
things that we've ever done, and we think it is, but we think 
the way to honor those people who have been part of that Apollo 
program is to not only look at those grainy videos and pictures 
but to create new high-definition views of the future. Thank 
you very much.
    Chairwoman Horn. Thank you, Mr. Sirangelo.
    Dr. Sanders.

               TESTIMONY OF DR. PATRICIA SANDERS,

             CHAIR, AEROSPACE SAFETY ADVISORY PANEL

    Dr. Sanders. Chairman Horn and Members of the Committee, 
thank you for the opportunity to discuss NASA's deep space 
exploration program.
    A principal role of my panel is advising NASA and the 
Congress on the safety and risk of human spaceflight. I 
emphasize that our responsibility is to provide advice driving 
down risk to the lowest level consistent with accomplishing the 
mission. Space exploration is inherently dangerous. The 
environment is hostile; the systems needed to survive in it are 
complex. The aim is not to avoid risk at all costs but manage 
the risk intelligently.
    Over the--our advice over the years has had consistent 
themes. One, as Representative Babin has quoted, is the 
importance of setting challenging but achievable schedules and 
not allowing undue schedule pressure lead to decisions 
adversely impacting safety and mission assurance. A second is 
addressing the question of how safe is safe enough within the 
context of the overall risk-benefit equation. The third is the 
importance of constancy of purpose, and fourth, holding to the 
fundamentals of risk management or recognizing that no single 
approach dictates the success of such an approach. I'll speak 
briefly to each of them in the context of the current programs.
    The Administration's policy of the--is to return astronauts 
to the Moon within the next 5 years, adding urgency to a 
complex and ambitious endeavor. Our panel continues to caution 
that targeted launch dates, while useful to impart a sense of 
urgency, should be used judiciously. Unrealistic schedules can 
result in poor decisions at least from a safety perspective if 
they lead to unwise shortcuts or elimination of critical 
testing.
    For example, we know that NASA is exploring options for 
launching Exploration Mission (EM) 1 as early as possible. This 
could have positive results, perhaps achieve greater decision 
velocity, restructured and more efficient work flow, a more 
streamlined approach. But we should not forget that the 
ultimate purpose of that flight is to mitigate risk and 
understand operational margins prior to the first crewed 
flight. Critical data is required to ensure as much as possible 
a safe EM-2 mission, including a successful green run, an 
effective heatshield, effective operation of parachute systems, 
abort mechanisms, and environmental control and life-support 
systems, among other things.
    In addressing safety in human space exploration, balancing 
the risk with value is important. It's paramount. As 
Congresswoman Horn had said, NASA's role in advancing space 
exploration pushes the envelope with great uncertainties and 
inherent risks, but safe as a term in this context does not 
have the same connotation as in a typical day-to-day life. With 
no excuse for negligence, it is impossible to control, 
eliminate, or mitigate every risk. So determining an acceptable 
level of risk balances many factors to decide if the chance of 
a mishap is outweighed by the likely mission benefit. Return to 
the Moon should not be an end in and of itself but considered 
in a risk-value framework.
    We should ask, as she has, is the objective--what is the 
objective of the mission? Is it part of a cohesive long-term 
strategy? Will it buy down risk for future exploration? Will it 
provide infrastructure-enabling next steps? Does it further the 
national goal of commercial space self-sufficiency? Does it 
support national leadership and foster international 
cooperation? Great exploration has involved major risk whether 
it was Magellan or Lewis and Clark, but it has been undertaken 
with an expectation of great benefits.
    Hand-in-hand with the risk-value proposition is constancy 
of purpose, national steadfastness, and pursuing stated goals 
that do not waiver over time and a willingness to support those 
goals with the necessary resources. Fluctuating policy, 
ambiguous objectives, budget inadequacies, and uncertainties 
add complexity and inefficiency to program management. They 
detract from meeting technical goals, and they dilute focus on 
safety and mission assurance.
    Last, as NASA embarks on the next phase of space 
exploration, I encourage them, in partnership with the 
Congress, to sustain the foundational standards of risk 
management while embracing new approaches. To that end, we can 
learn from and expand on the positive aspects of the experience 
with the Commercial Crew Program. We evolved there over time, 
and the establishment of mutual trust and transparency, the use 
of ``badgeless'' teams, early engagement, and appropriate 
engagement of the government, appropriate contract flexibility, 
and timely decisionmaking. These bring the potential to not 
only lower cost and shorten development time but also to reduce 
risk.
    In closing, I note that NASA and the Nation have made great 
progress in the last few years, but a lot of work remains 
ahead. It is a time for excitement, optimism, and reasoned 
caution.
    Thank you. I look forward to your questions.
    [The prepared statement of Dr. Sanders follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Horn. Thank you, Dr. Sanders.
    Dr. Lunine.

                TESTIMONY OF DR. JONATHAN LUNINE,

            DIRECTOR, CORNELL CENTER FOR ASTROPHYSICS

                     AND PLANETARY SCIENCE;

            CO-CHAIR OF THE FORMER COMMITTEE ON HUMAN

          SPACEFLIGHT, NATIONAL ACADEMIES OF SCIENCES,

                   ENGINEERING, AND MEDICINE

    Dr. Lunine. Chairwoman Horn, Ranking Member Babin, and 
Members of the Subcommittee, thank you for the opportunity to 
appear before you today to discuss NASA's deep space human 
exploration program, including proposed lunar activities.
    In June 2014, the National Academies of Science, 
Engineering, and Medicine released a report entitled, 
``Pathways to Exploration: Rationales and Approaches for U.S. 
Program of Human Space Exploration.'' I co-chaired that 
committee together with Mitch Daniels, President of Purdue 
University. The Pathways report was a response to a charge from 
Congress in the 2010 Authorization Bill to review NASA human 
spaceflight and to determine the value and benefits of the 
program if possible.
    The key findings of our report were the following: First, 
Mars is the horizon goal for human spaceflight for a number of 
reasons, but it is also decades away due to the enormous 
distance and the need for substantial technology development.
    Second, a program to send humans to Mars ought to be based 
on a pathways approach, the pathways being different options by 
which to get there through intermediate steppingstones that 
provide short-term successes and technologies that can 
feedforward to an eventual Mars mission. The Moon represents--
and particularly the surface of the Moon, represents one 
intermediate destination, and although it was not in our 
purview to choose, we found that it had the highest feedforward 
to humans on Mars.
    Third, crucial to such a long-range endeavor are 
international partnerships in which the space agencies of other 
nations play significant and meaningful roles.
    And fourth, key technologies that must be developed for 
humans on Mars are entry, descent, and landing on Mars; 
advanced in-space propulsion and power; and radiation safety, 
among others.
    So why the Moon? The Moon offers a number of opportunities 
and advantages over the direct-to-Mars approach. First, the 
Moon is less than 5 days away, greatly simplifying logistics in 
response to emergency situations.
    Second, the Moon provides a superb opportunity to do 
important planetary science, particularly regarding planet 
formation and evolution in the earliest history of the Earth.
    Third, the Moon allows a more permanent rather than a 
sortie concept of operations over time as surface systems are 
developed, including continued development of environmental 
control systems that are more nearly closed and require less 
provisioning from Earth than does the International Space 
Station.
    So what lessons then should the human spaceflight program 
and its return to the Moon take from the Pathways report? Well, 
first and foremost, we must be in it for the long haul. An 
Apollo-style sprint to the Moon in and of itself is not a 
steppingstone to more distant goals in deep space exploration.
    And second, the agency has to balance schedule against 
budget. Schedule-driven programs will cost considerably more 
per year than budget-driven programs, and the 2024 goal of 
putting humans on the Moon should not be undertaken without 
resources adequate to that goal but also without cannibalizing 
other important programs that NASA is conducting, including its 
remarkable space science program, which has made groundbreaking 
discoveries from the cosmos to the planets to the Earth.
    Third, engage international and commercial partners in the 
program as they are crucial to a successful program of sending 
humans to the Moon and Mars, but the U.S. civil space program, 
NASA, must lead the effort.
    And finally, recognize that if the Nation wishes to 
undertake a program of deep space exploration, it must always 
bear in mind and never forget that the Moon is a steppingstone. 
It's a steppingstone to Mars.
    In remarks last month to the University Space Research 
Association, Scott Pace from the National Space Council talked 
about sustainability of exploration. One of the points he made 
was the programmatic sustainability in human exploration 
requires sustained political support, and, in turn, sustained 
political support requires a good cadence of successes. 
Taxpayers can see a return on their investment in a short 
enough time for the relationship between investment and payoff 
to be clear. And it is precisely that approach which our 
Pathways report endorsed and detailed in order to assure that 
Americans will return in a timely manner to the Moon and one 
day walk on the red soil of Mars.
    Thank you again for the opportunity to testify today, and I 
look forward to your questions.
    [The prepared statement of Dr. Lunine follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Horn. Thank you, Dr. Lunine.
    Mr. Faulconer.

                TESTIMONY OF MR. WALT FAULCONER,

           PRESIDENT, FAULCONER CONSULTING GROUP, LLC

    Mr. Faulconer. Chairwoman Horn, Ranking Member Babin, and 
Members of the Subcommittee, I am honored to be here today to 
discuss and support NASA's deep space exploration program, 
first returning United States to the surface of the Moon by 
2024 and onto Mars in the 2030s.
    This year, while we're celebrating the 50th anniversary of 
the Apollo 11 Moon landing, China, India, and Israel are 
sending their craft to the Moon. Where is the United States?
    We are currently facing a formidable challenge from China 
to surpass our leadership. I for one actually welcome this 
challenge because it helps us to focus and galvanize to 
maintain our leadership in space. Leveraging over 60 years that 
has brought us the Space Shuttle, the International Space 
Station, and now new craft like SLS and Orion, CST-100, New 
Shepard, Dream Chaser, Cygnus, Dragon, we have an armada of 
capabilities to build upon to return to the Moon and head onto 
Mars.
    I applaud the goal of returning to the surface of the Moon 
by 2024 because it provides needed urgency and focus. It is 
also very achievable. It took us 7 years from President 
Kennedy's speech in September 1962 starting with very little to 
get to the Moon by July 1969 with Apollo 11. In fact, when 
President Kennedy gave us the challenge to go to the Moon, only 
three Americans had ever flown in space, Shepard, Grissom, and 
Glenn. That was it.
    And this time it will be different. When we go back to the 
Moon, because besides investing in all these different 
spacecraft over the last 10 years, we'll be going with 
international partners and a very robust commercial industry.
    The second core requirement is to go back to the Moon in a 
sustainable way. We are going back to stay. That means we have 
to address what are we going to do on the Moon after we get 
back in 2024? As I addressed in the paper I provided you, there 
are key questions we'll be able to answer on the Moon in our 
endeavor to explore, including science questions. We have 
discovered many new questions in science pursuits since the 
Apollo program that include things called lunar swirls, 
skylights, and the applied science providing ground truth to 
the resources and minerals that we have seen from orbit.
    Exploration questions: Do humans have a future in space? 
Can we live off the land? What adjustments do our plans to Mars 
do we have to make along the way?
    Business questions: Is there a sustainable commercial 
business case on or around the Moon?
    National interest questions: How do we ensure American 
leadership in space?
    The third core requirement is keeping our sights on Mars. 
The National Academy Pathways study that Dr. Lunine represents 
had a key recommendation to maintain long-term focus on Mars as 
the horizon goal for human space exploration. It is correct, 
but let's face it, we're not ready to go to Mars today because 
the risk is too high.
    One of the studies going on at JPL (Jet Propulsion 
Laboratory), for example, is quantifying the risk and 
determining how much of the risk can be retired by going to the 
surface of the Moon or identifying what risks are not being 
retired by anything we're currently planning. That will be 
important to help us create an extensible exploration 
architecture starting with the end goal in mind. When we go 
back to the Moon, we need to learn how to live off the land, 
live for longer durations on the surface, and deal with the 
hazards that the astronauts will be facing on Mars.
    We can achieve all of these goals, but our largest 
challenge is not the technology, engineering, or ingenuity. 
Rather, it's overcoming the institutional momentum that slows 
down the process, keeps the status quo, and protects rice 
bowls, stifling innovation. We need to organize and streamline 
for success.
    When Dr. George Mueller came to NASA from Bell Labs to lead 
us to getting to the Moon in 1963, he recognized that NASA, 
even in its infancy, needed to be reorganized and refocused 
from top to bottom. He bravely and fearlessly took on the 
establishment and streamlined program efficiencies borrowing 
from the successes of the Air Force Minuteman program while 
strengthening independent systems engineering by bringing on 
Bellcomm to provide the needed enterprise-level systems 
engineering and integration. All of this can be accomplished 
with courageous leadership.
    I really look forward to very soon seeing Americans walking 
on the surface of the Moon and soon after walking on Mars. As 
President Kennedy stated, the goal will serve to organize and 
measure the best of our energies and skills, a challenge we are 
willing to accept and one we are unwilling to postpone.
    Thank you very much for the invitation to appear in front 
of you today, and I look forward to your questions.
    [The prepared statement of Mr. Faulconer follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Horn. Thank you very much, Mr. Faulconer, and 
thank you to all the witnesses for your opening statements. I 
know we have a lot to discuss today, and I'll start with 
questions and then we'll go from there.
    So the Chair recognizes herself for 5 minutes for the first 
round of questions if I can find my questions, that is. Here 
they are.
    So, Mr. Gerstenmaier and Mr. Sirangelo, thank you for being 
here. I think was a great reminder that the Full Committee 
Ranking Member played that video. There's a lot of really 
important and inspirational things that NASA has brought to us 
that each of you has touched on.
    So I have a series of questions because we've got to get 
this right for so many reasons that many of you have mentioned.
    The NASA Administrator committed to providing the Committee 
with an amended budget request very close to April 15, so it's 
now May 8, and my question is what is the reason for the delay, 
and can you commit to providing this Committee with a lunar 
plan and budget amendment on what date?
    Mr. Gerstenmaier. I guess I can start. I think, first of 
all, we recognize that this is a really serious challenge we 
have to lay in front of us, and we need a really solid plan. 
And it was discussed by many of the testimonies here. We need 
to make sure it's all integrated and all put together in a way 
that really makes sense.
    So we've been taking the time. We brought Mark on board. 
He's been working with us. We've been working to develop 
detailed plans building off of what we've already done, so 
we're taking a lot of the equipment that we've already been 
doing, the teams we've had in place, and we're figuring out how 
to use those in a new, creative way moving forward. So we're 
busy establishing those plans.
    We also have to go through the Administration, get budget 
approval, make sure we understand where we are, even look at 
the out years because if we work just near-term and we think 
about just the next year and we don't have those future plans 
all the way through 2024, answer some of your questions about 
how the ``why'' fits in, and then how this feeds to Mars, we 
need to put all that together. So we're taking the time to get 
that right.
    We're probably several weeks away, maybe 1 week to 2 weeks 
away from being able to give you a plan and show you what we 
have moving forward with specifics. But we can--at a high level 
we can describe to you today some of the things that we're 
doing and moving forward and how we build off of the existing 
programs.
    Chairwoman Horn. Mr. Sirangelo, do you have anything to add 
to that?
    Mr. Sirangelo. Thank you for the question. It's a serious 
question, and we take it that way. This isn't just about moving 
a date forward. It's about trying to figure out how to do 
something different and better at the same time. The process 
that we've gone through is to make sure that the architecture 
that we need to design makes sense.
    One of the--I think the highest things we have to do for 
this Committee and for Congress is to come back with answers 
that we can really believe in that we can speak to, and those 
are in the works. We have gone through the architectural 
design, we've gone through the understanding of what it's going 
to take to make that happen, but it's also more than that. How 
does NASA change? How does NASA organize? How do we incorporate 
the commercial and other parts of our industry to enable this?
    I think, as Bill said, we are well on that way to doing it. 
We also have an obligation to make sure that we work together 
with the budgeting process. So from our perspective at NASA 
we're very close to doing that, and we understand that the 
delay is frustrating, but this is a big challenge and we want 
to get it right.
    Chairwoman Horn. So thank you very much. It is a big 
challenge, and we absolutely have to get it right, which is why 
we need detailed plans and proposals. We'll look for that in a 
couple of weeks. And I think, as Ranking Member Babin and 
Chairwoman Johnson mentioned, there will likely be follow up 
within this Committee on that issue.
    So following up on those questions about these plans 
because sustainability and long-term planning is critical for 
something that is this challenging and this important, who in 
the Administration will have final approval and signoff on the 
plan? And who in the Administration will have final signoff and 
approval on the budget amendment?
    Mr. Sirangelo. From the NASA perspective, the NASA 
Administrator is responsible for the plan and for the 
delivering of the plan. We are supporting that. The budget is 
then provided as an estimate to OMB, and OMB would then provide 
the budget when it's thoroughly completed it.
    Chairwoman Horn. OK. Thank you. So what--and following up 
further, what acquisition approach--when you're looking at 
this, what acquisition approach is NASA planning to use to 
procure the elements needed for the 2024 lander? Are you 
looking at firm-fixed price, cost-plus? What is the approach 
that you're looking at right now?
    Mr. Gerstenmaier. I think we're looking kind of at a 
mixture of approaches depending upon the hardware and systems 
that we put together. We've been using broad agency 
announcement called BAAs that have been pretty effective. 
They're typically a contracting instrument that has a fixed-
price provision in them. I think there's also a role for some 
cases to have some cost-plus activities, but I think you'll see 
a mixture of acquisition approaches moving forward depending 
upon the risk level, the speed, and the maturity of the 
industry.
    As you see, we talked--Mark talked a little bit about the 
commercial lander services program that the Science Mission 
Directorate is doing. That's a small lander system that--when 
we land small payloads on the Moon. We'll get a chance to see 
how that works in the Science Mission Directorate where they 
can take significantly more risk than we can. And depending on 
how well that works, we can get a chance to judge how ready 
industry is to go take on the challenges of human-class 
landers. So we'll use these acquisitions to inform other 
acquisitions moving forward, but it's a variety of acquisition 
instruments.
    Chairwoman Horn. Thank you. And will the acquisition 
approach be included as a part of the plan when you submit it?
    Mr. Gerstenmaier. Yes, at a top level, and we're actually 
implementing some of that acquisition approach today as we sit 
here.
    Chairwoman Horn. OK. I know I am a little bit over time. 
I'm just going to--have a couple more and then we'll turn it 
over to Ranking Member Babin.
    Will--so will NASA--my next question is about authorities 
because there have been a few things. Will NASA be seeking any 
statutory authorities to achieve this 2024 Moon landing level 
in the overall program, and if so, when do you plan to provide 
those to the Committee?
    Mr. Gerstenmaier. They would be provided when we provide 
the overall plan to you.
    Chairwoman Horn. OK. I mention this because I want to note 
that the reason that I question this is that the approach of 
using a reprogramming request rather than going through the 
authorizing committee to propose major reorganizational 
changes, especially since NASA still--we don't have the plan 
yet, and it hasn't been provided to the Committee with any 
specific plan changes or budget amendment to evaluate it, and 
the request to the Appropriations Committee takes that 
approach.
    Following up, do you have any--do you have a lunar--and I 
think this is--we've seen--you know where I'm going--questions 
about this. Do you have a lunar surface spacesuit that will be 
ready for the 2024 mission right now? If so, which suit is it? 
And if not, when do you anticipate that being available?
    Mr. Gerstenmaier. We don't have a suit that's appropriate 
for the activity for the Moon today. We have portions of the 
suit that are sufficient but not the entire suit. Again, we're 
going to understand the test that we want to do on the first 
mission in 2024 and then, based on that, we're going to 
probably develop a suit to move forward in that direction.
    In the past, we started suit activities before. We did it 
in the Constellation program. That suit cost for that program 
became very prohibitive. We need to look at a way that we 
understand the requirements and we incrementally move forward 
and build off of what we've got, so we need to do some work, 
and that'll be discussed again. And there's a plan is--will--
there will be a discussion of the plan for suit acquisition as 
part of the overall lunar plans moving forward.
    Chairwoman Horn. Thank you very much. I know we'll have 
many more questions for the rest of you. For now, I'm going to 
wrap that up.
    And I recognize Ranking Member Babin.
    Mr. Babin. All right. Thank you. Thank you very much.
    I guess, first, I want to recognize two interns from Texas 
A&M University we have out there in the crowd. Josh Mendez back 
there and Rachel Gill in the back as well, thank you for being 
here.
    In 2011, this Committee held a hearing entitled, ``NASA 
Human Spaceflight Past, Present, and Future: Where Do We Go 
from Here?'' Former NASA Administrator Mike Griffin testified, 
and I'd like to quote from several passages from his testimony 
and seek very brief yes or no answers from our witnesses. And 
if you would like to elaborate more, please wait until the end.
    So to start, this is, quote, ``What does a real space 
program look like and not look like? A real space program sets 
and meets stable national strategic goals for the leadership on 
the space frontier by developing, evolving, and preserving 
national capabilities to operate on that frontier. It does not 
allow that capability to be held hostage to the goodwill of 
other powers or to the vagaries of a nascent and fragile 
marketplace.'' All very briefly, I would like to go down the 
line, start with you, Mr. Gerstenmaier, do you agree with this 
sentiment, yes or no?
    Mr. Gerstenmaier. Yes.
    Mr. Sirangelo. I do.
    Dr. Lunine. Partially, I agree.
    Dr. Sanders. Yes.
    Mr. Faulconer. Yes.
    Mr. Babin. Thank you very much.
    All right, second, ``A real space program may'', I'm still 
quoting, ``and, indeed, should offer a stable market to be 
addressed by commercial providers, but it cannot be dependent 
upon such providers for strategic capabilities. A real space 
program recognizes that this Nation has interests that rise 
above the fortunes of individual private contractors, and it 
protects those interests. The proper role of government is to 
reward winners, not to pick them, nor to step in as an investor 
in enterprises which cannot pass the test that the capital 
markets impose.''
    Mr. Gerstenmaier, yes or no, do you agree with that?
    Mr. Gerstenmaier. Yes.
    Mr. Babin. Mr. Sirangelo?
    Mr. Sirangelo. Yes, I do.
    Mr. Babin. Yes, sir. Dr. Lunine.
    Dr. Lunine. I agree with that statement.
    Mr. Babin. OK.
    Dr. Sanders. Yes.
    Mr. Babin. Yes.
    Mr. Faulconer. Yes, I agree.
    Mr. Babin. All right, thank you.
    Going on, a real space program is grounded in physics, not 
politics, and stepping outward beyond low-Earth orbit and the 
ISS a human return to the Moon is the next logical goal from a 
host of scientific, engineering, operational, and even 
commercial perspectives. From there, and with the experience 
thus gained, we should proceed onward to Mars, and should do so 
in a timely way, else Mars will always be the destination in 
the future.
    Mr. Gerstenmaier.
    Mr. Gerstenmaier. Yes.
    Mr. Sirangelo. Yes, I do.
    Dr. Lunine. Absolutely.
    Mr. Babin. Dr. Sanders?
    Dr. Sanders. Yes, with a caveat.
    Mr. Babin. OK. Well, if I have time at the end, we'll hear 
about that.
    Mr. Faulconer. I agree.
    Mr. Babin. All right, thank you.
    And then finally, these truths were recognized in the NASA 
Authorization Act of 2005, and again in 2008, both of which 
were originated by this Committee. The course for this Nation's 
future in space that was laid out in those Acts does not need 
to be changed, it needs to be followed. We must stay that 
course. If we do so, the right rocket designs will emerge. If 
we cannot, the rocket design doesn't matter.
    Concerning the larger perspective of this hearing, I can 
thus offer no better counsel to this Committee than the 
guidance which it has previously issued.
    Mr. Gerstenmaier, do you agree?
    Mr. Gerstenmaier. Yes.
    Mr. Babin. Mr. Sirangelo?
    Mr. Sirangelo. I do.
    Mr. Babin. Dr. Lunine?
    Dr. Lunine. I do.
    Mr. Babin. Dr. Sanders?
    Dr. Sanders. Yes.
    Mr. Babin. Dr. Faulconer?
    Mr. Faulconer. Yes.
    Mr. Babin. OK. Now, we still have about an--1 minute and 6 
seconds left, would any of you like to elaborate further on 
these? Dr. Lunine?
    Dr. Lunine. So first, I'd like to know if I passed the pop 
quiz or not, being a professor. Second, my one caveat with the 
first question was that it is crucial that we engage other 
agencies of other countries in any program going to Mars. The 
cost of the undertaking is going to be such, and the magnitude 
is going to be such that not engaging with international 
partners, I think, would be a mistake. Certainly, we should be 
leading, and we need to lead from the front, not from behind, 
but I just want to make clear that international participation 
in sending humans onto Mars is crucial.
    Mr. Babin. Do you think that those international partners 
should be on that critical path as well?
    Dr. Lunine. I think that the answer for Mars at least, not 
necessarily for the Moon, but for Mars the answer is yes, in my 
view.
    Mr. Babin. Dr. Sanders?
    Dr. Sanders. The statement said that the space program 
should be physics-based and not politics-based, and I agree 
that the solutions, the technical means, are physics- and 
engineering-based, but sometimes the reason why a program is 
important is--has to do with national goals beyond the 
technical goals.
    Mr. Babin. I would agree. I would agree. Thank you very 
much.
    And I think my time has expired, so I want to thank you 
all, witnesses. And I yield back, Madam Chair.
    Chairwoman Horn. Thank you, Mr. Babin.
    The Chair now recognizes Full Committee Chairwoman Johnson 
for 5 minutes.
    Chairwoman Johnson. Thank you very much.
    I'm just filled with questions, and I know there's not time 
to answer all of them, but I am very impressed with all of the 
research that's going on now with NASA, and I'm very concerned 
that much of it might be interrupted to afford the new 
direction. And I need your opinions on that. Could you start, 
and just go down the line?
    Mr. Gerstenmaier. Sure. I think do we need the--we need to 
invest in new research and new technology to achieve the kind 
of goals for Mars. So we need to balance the near-term urgency 
with the need to do the investment into long-term research and 
science and technology development.
    Chairwoman Johnson. Does that include discontinuing or 
slowing down substantially the type of research that's going on 
now at NASA in Maryland?
    Mr. Gerstenmaier. We should not slow down the research 
that's--that fits our objectives moving forward. It needs to 
continue in parallel. And we can use some of that research 
directly in what we're doing. I think Space Station is a great 
example. The OCO-3 experiment, the carbon experiment, is going 
to station. It'll be installed Thursday night. That was a spare 
instrument that was available on the ground that was able to go 
fly from Goddard up to Space Station, and it essentially takes 
advantage of Space Station. So the human spacecraft has 
essentially provided a home for this instrument that's going to 
give us a new look at carbon generation that we would not be 
able to see without the tie between human and research.
    Chairwoman Johnson. Um-hum.
    Mr. Gerstenmaier. So I think there's not a--necessarily an 
incompatibility between the two objectives.
    Chairwoman Johnson. What is the future of the Orion, of the 
SLS?
    Mr. Gerstenmaier. They look strong. We've got a lot of work 
in place. As I described in my opening remarks, there's a lot 
of hardware in place, a lot of hard folks working on that 
hardware. We're in the middle of very heavy integration down at 
the Kennedy Space Center with Orion. We're in the final 
construction of the core stage at Michoud Assembly Facility in 
New Orleans--outside New Orleans. It's a very busy time for us; 
turning kind of dreams, aspirations into real hardware that 
will take us to the Moon and on to Mars.
    Chairwoman Johnson. Thank you.
    Mr. Sirangelo. I agree with Bill's comments, but I want to 
take it one step further because I think your question is 
really an important one.
    As a technologist, one thing to do is to develop the 
technology. The second part of it is to actually put it into 
service, to make it work. And I think one of the aspects of 
this program, by accelerating what we actually are doing, is 
enhancing the science. We're not just doing the technology, 
doing the science in theory, or in prototype, but we're 
bringing it to a place where we can actually use it, make it 
better, and bring it back and improve it for the next 
generation. And that's a really key and critical part of what 
we're trying to accomplish.
    I think the other thing which is really important on this 
plan is that by going and getting ourselves in service by 2024, 
what we actually are doing is then starting operations in 2024 
going forward, many years sooner than what we would have done. 
And it's in that operational phase, it is in that ability to 
continue to move forward that we really see the strides that 
are necessary.
    If you go back and look at any part of our history in 
aviation, the difference between the airplane when we entered 
World War II and when we came out of World War II was 
incredible. The difference in the airplane when we entered 
World War I and we came out of World War I is incredible. And I 
think what we're seeing here is this opportunity over the next 
5 years to enhance that science, to bring it to the next level, 
and to put it out in the field where it can do some good, is 
really the difference-maker because that's what creates the 
jobs for the future, that's what takes that technology and 
makes it useful for the American people.
    Chairwoman Johnson. Thank you.
    Dr. Lunine. Thank you, Chairwoman Johnson. It's a pleasure 
to be testifying in front of you again.
    With respect to research having to do with space science, 
as you mentioned Maryland, there are places that robots can go 
that humans cannot. Our committee was serious about Mars being 
the horizon destination for a number of reasons. NASA's 
spacecrafts have gone out through the whole solar system, have 
looked at the universe, virtually to the end of the universe, 
and those kinds of discoveries must continue as we continue to 
develop this human spaceflight capability. Having said that, 
there are things that robots and humans can do together on the 
Moon and Mars that will open up a whole new dimension of 
science and exploration if we can implement that kind of dual 
approach.
    Dr. Sanders. NASA's portfolio is a lot bigger than just 
human space exploration and deep space exploration. There's a 
lot of Earth science work that's very important to a lot of our 
Nation. There's very deep space probing sensors that we'll see 
with the James Webb Space Telescope when it get--and the first 
A in NASA aeronautics, what they're doing with low-boom 
technology and other things, that shouldn't go away just in 
order to make this one happen.
    Mr. Faulconer. So coming from the Johns Hopkins Applied 
Physics Laboratory in Maryland, I am very much concerned about 
the science portfolio as well. But I think it's healthy, and if 
you look at the portfolio, there's a great raft of missions 
being planned. And I agree with Mark that I believe that this 
initiative will actually help us accelerate not only the 
science missions, but also the technology that will then 
benefit the science missions.
    Chairwoman Johnson. Thank you very much. My time has 
expired.
    Chairwoman Horn. Thank you, Chairwoman.
    The Chair now recognizes Full Committee Ranking Member 
Lucas for 5 minutes.
    Mr. Lucas. Thank you, Chair.
    Mr. Faulconer, the Vice President has challenged NASA to 
return to the Moon by 2024. Your testimony indicates this is 
the appropriate course for NASA to pursue. Based on your 
experience with other programs, let's talk for just a moment 
about the greatest challenges to achieving the goal, and how we 
can mitigate those challenges.
    Mr. Faulconer. Well, as I mentioned, the institutional 
momentum was one issue, but another one I agree with Dr. 
Sanders about is the consistency of purpose. You know, quite 
honestly, a lot of us in this industry suffer from professional 
whiplash because every few years we change what direction we're 
going, and where we're going, and how fast we're going. We need 
that consistency of purpose so that we can stay focused. And so 
I--that's one reason why I welcome it's logical to go back to 
the Moon and get on to going to Mars.
    Mr. Lucas. Mr. Gerstenmaier and Mr. Sirangelo, speaking of 
that, President George H. W. Bush's Space Exploration 
Initiative was challenged by a $400 billion price tag, which 
Congress at the time rejected. President George W. Bush's 
vision for space exploration was challenged by a lack of 
support from OMB, which failed to request sufficient funds to 
support the plan. We've made considerable progress since those 
two proposals. NASA's exploration budget now eclipses $10 
billion per year, and we're invested in the Space Launch 
System, the Orion Capsule, and the supporting ground 
infrastructure. We've already made investments in next-
generation systems that are necessary for lunar exploration and 
a steppingstone to the Moon. What's NASA doing to implement 
lessons from those previous initiatives, and specifically, what 
is NASA doing to ensure that any plan it submits to Congress 
for review is sufficient, that being a very key phrase, 
sufficient to achieve the goal, but also focusing only on the 
necessary investments?
    Mr. Gerstenmaier. Again, I think as we take a look at the 
lunar objective for 2024, again, as I described kind of in my 
opening testimony, we're taking the hardware we've already 
built that's already in pieces, and we've figured out how to 
implement that hardware to go to achieve the lunar goal. And 
the discussion about the spacesuits, again, we've got to be 
careful we don't put more than we absolutely need for the 
suits, for the missions to begin with, but they're evolvable 
and they're sustainable moving forward.
    So I think we need to take this in steps, the way it's been 
described where we put pieces in place, that we can build and 
build the next piece moving forward.
    The ascent vehicle that we'll look at for the lunar 
activity, that ascent vehicle has direct applications to the 
Mars ascent vehicle on Mars. So if we look at where our 
hardware fits and how it moves forward, we don't have dead 
ends, we don't build hardware that's unique to one application 
and move forward. And we need to be very cautious about how we 
build our contracts, how we acquire our hardware, to make sure 
we get good value for ourselves, and to continue to do the 
right--or don't drive the budget to the levels that are not 
sustainable.
    Mr. Sirangelo. Sir, I think one of the things that is 
really different this time is that we are--when you're 
investing in technology as the way we have done as a government 
and as a country, it's an accumulative process. We are a lot 
smarter not only because we've learned the lessons of the past, 
but because we now are--exist in an industry that has 
significantly more space flight activity, more significant, 
more technology on orbit, and we have just understood the 
environments that we're working in to a greatly different 
level.
    I know in your district you have farmers who are working 
many generations, and in doing that you learn from generation 
to generation, and I think we have done the same thing in our 
area. We are also backed now by commercial industry throughout 
the United States, which has invested heavily on its own. So it 
isn't just government that's making that investment; we're 
making that investment throughout our entire economy.
    Mr. Lucas. So understand when I make this next comment, in 
many ways as my town meeting constituents speak through me to 
the body, I speak through you to those who make decisions. Your 
folks are the can-do people; but OMB, the Administration at the 
top levels, there are so many elements there. So when I make 
this following comment, bear that in mind. The previous 
Administration submitted budget requests that required on what 
I would describe as creative bookkeeping; switching NASA 
funding from discretionary to mandatory spending, tying it to 
increases in gasoline taxes. Those proposals were rejected by 
Congress. I hope that the proposals we'll receive are not 
funded in a similar fashion to the things done in the previous 
Administration, because that will cut the legs out from under 
us. If we don't accomplish this this time, I don't know when 
we'll have a fourth opportunity in certainly my lifetime.
    Thank you. I yield back.
    Chairwoman Horn. Thank you, Mr. Lucas.
    The Chair now recognizes Congressman Bera for 5 minutes.
    Mr. Bera. Thank you, Chair Horn, and Ranking Member Babin.
    You know, I got my colleague from Colorado riled up when I 
was mentioning the Mars 2033 report suggested that we couldn't 
get to Mars until 2037, and he said he's invested a lot of time 
and effort into making these bumper stickers. And, you know, he 
made some really good points, and I think I want to touch on a 
couple.
    Mr. Faulconer, you touched on consistency of purpose. Part 
of what made us successful in the 1960s was congressional 
support, Administration support, and a consistent goal and a 
consistent timeline. And I have no doubt that if we set 2033 as 
a goal, put the resources and focus on it, we couldn't 
accomplish that. What I worry about is the politics, and the 
politics of going from one Administration to the next. You 
know, you have the Constellation Program that said let's go to 
the Moon, and then Constellation got canceled, and we were 
going to go do asteroid retrieval. New Administration comes in, 
we're no longer doing the asteroid retrieval, we're now going 
to go back to the Moon. And unless we have that consistency of 
purpose, we won't get there by 2033.
    So, you know, I'll leave it to the scientists to decide, 
you know, if going to--a return to the Moon is the right next 
step or something different, but for us to do our job and 
provide the support to not just NASA, and the difference today 
is, you know, in the Apollo Program, NASA was the launch 
vehicle, they were the Lunar Lander, they were, you know, the 
science mission. Well, today's world is much more complicated. 
You've got commercial launch vehicles, you've got much more 
robust international engagement, you certainly have the 
subcontractors that are out there. And when we think about 
going to Mars by 2033, we're not thinking about doing this by 
ourselves, so we really do have to then bring in that 
international community.
    A couple of questions that, you know, I haven't been able 
to find answers for, but I think it would make our jobs easier 
as Members of Congress to advocate for that consistency of 
mission. We always look at programs and Congress as an expense 
item, and I haven't really been able to get an answer on what 
was the return on investment of the Apollo Mission, the number 
of jobs created, the number of discoveries, inventions, new 
companies found, what was the benefit to not just our economy, 
and I don't know, maybe, Mr. Gerstenmaier, would you have those 
numbers, or is there a good place that you could direct those, 
or should we direct the Academies to perhaps do a study so it's 
not just the cost, but here's our return on investment that 
we're going to get?
    Mr. Gerstenmaier. Yes, I think that would be best if I took 
that question for the record, because there's been numerous 
studies in the past, and rather than recall those from memory, 
we could actually pull those, we could provide those to you, 
and then you could determine if they're sufficient or you want 
to pursue something else.
    Mr. Bera. That'd be great, because again, it certainly 
would help us make our case. You know, we're going to spend 
billions of dollars, you know, both going to the Moon, but then 
if the goal beyond the Moon--you know, and another question 
that--you know, one of the opening comments, there's--you know, 
China is going to the Moon. They're not putting a person on the 
Moon. India is going to the Moon, et cetera. Our focus is to go 
to the polar icecaps. And, you know, one question--and I've 
talked to my colleague; he's a lawyer, I'm a doctor, when 
they--when we get there or they get there, and they start 
extracting some of that ice, who actually owns that ice? I 
mean--and, you know, I don't just put that out there, because 
it--you know, what are our property rights? Is it the gold 
rush? Is it whoever gets there first can claim that? Because in 
my mind, you know, we're going to think of the Moon a little 
bit as a gas station if we're looking at it in the context of 
going to Mars. We're going to take that ice, turn it into fuel, 
and obviously it'll be a lot easier to launch from the Moon.
    I don't know if that's too simplistic, but I'd toss that 
out there, and whoever--anyone want to take a gander at that? 
Or is that the type of thing that we ought to think about 
proactively and set the parameters? Will this be like 
Antarctica where, you know, this is really an international 
resource for an international project? But I do--because 
commercial companies are already talking about trying to get 
there as well and, you know, is that the right question that we 
should be asking or thinking about, or should we be working--
anyone want to take a crack at it?
    Mr. Sirangelo. I think the question is an appropriate 
question. When we're talking about doing the plans for what 
we're doing, it's not just a plan for the hardware or the 
technology, it's a plan to be there, which means all aspects of 
being there; the human life, the science, the research, but 
also the understanding of how to do it properly. Exploration 
has been going on for quite a long time in the human race, and 
there have been these issues before. We've sorted out those 
issues on the oceans. For example, there is the maritime law 
that handles it. So I think as we do this, it's beyond our 
scope today and we can't really answer the question. But I 
think the question is an appropriate one that we need to 
consider as part of our longer-term plan.
    Mr. Bera. Right. And I certainly think that's a question 
that, you know, American space industry ought to think about, 
and we ought to grapple with and take it to the international 
community.
    So thank you. And with that, I'll yield back.
    Chairwoman Horn. Thank you, Mr. Bera.
    The Chair now recognizes Congressman Brooks for 5 minutes.
    Mr. Brooks. Dr. Sanders, the Aerospace Safety Advisory 
Panel previously cited a number of safety concerns with both 
Boeing and SpaceX commercial crew vehicles. One item in your 
report cited was parachute-related concerns. Have there been 
any recent tests of the parachute system conducted?
    Dr. Sanders. Yes, there's actually been a large number of 
tests of the parachute systems conducted, both for Orion in the 
longer-range program, and both--and the SpaceX and Boeing 
commercial crew programs. And I think they've made a great deal 
of progress in understanding those uncertainties involved with 
that. It's one of the largest risks they have to solve.
    Mr. Brooks. Can you tell us about the results of recent 
tests, say, in the last month or two?
    Dr. Sanders. I think Mr. Gerstenmaier probably could do a 
better job with that, but there have been a number of very 
positive tests, results confirming that--what we would expect 
or would desire in terms of re-entry performance of the 
parachutes. There have been a few less satisfactory results, 
and some tests that are indicating that there may need to be 
some redesign or some adjustments made to the design that they 
have as now. And those are important to get right before you 
launch humans.
    Mr. Brooks. More specifically then, did SpaceX conduct in 
April 2019 a parachute test in Delamar Dry Lake, Nevada?
    Dr. Sanders. Yes, I believe.
    Mr. Brooks. And what happened in that test?
    Dr. Sanders. I cannot answer that right now. Mr. 
Gerstenmaier might have better data than I have at the moment.
    Mr. Brooks. Mr. Gerstenmaier, do you know what the result 
of that test was?
    Mr. Gerstenmaier. Yes, the test is going to force us to go 
back and look at some potential--well, I--we're not sure 
exactly. The test did not--was not satisfactory. We did not get 
the results we wanted, but we learned some information that's 
going to affect potentially future parachute designs. The other 
thing we need to understand, was it a test-unique circumstance? 
Was it driven by an actual design problem in the hardware, or 
was it driven by the set-up of the test or the particular 
equipment that was used during the test?
    Mr. Brooks. Can you get more specific when you say it 
wasn't what we wanted?
    Mr. Gerstenmaier. Yes, it didn't fail--it failed. The 
parachutes did not work as designed. It was a one single-out 
test for this parachute, so typically that test would involve 
four parachutes. One was--proactively failed ahead of time, and 
then the three remaining chutes did not operate properly.
    The good thing on the test was we had instrumented lines 
going up to the parachute, so we know exactly what the loads 
were in the system, but we still need to understand whether it 
was a test set-up configuration coming out of the aircraft, or 
if there was something associated with the packing of the 
parachutes, the rigging, all that. But this is part of the 
learning process. By these failures, we're going to learn the 
data and information to effect a design, to end up with a safe 
design for our crews.
    So I don't see this as a negative. This is why we test. 
This is why we want to push things. This is why we want to 
learn----
    Mr. Brooks. What was the impact on the vehicle of the 
parachute failures?
    Mr. Gerstenmaier. It was a test sled, and the test sled was 
damaged upon impact with the ground.
    Mr. Brooks. And you're comfortable that corrective measures 
will be undertaken?
    Mr. Gerstenmaier. There's no question. I am very 
comfortable. Their teams are fully engaged. We are 
understanding this is a gift to us. We have--we've gotten data 
that is unique that will help us design and understand if this 
is something that needs to be fixed, or if it's something that 
was just a nuance of the test and the configuration. And the--
--
    Mr. Brooks. All right, let me----
    Mr. Gerstenmaier [continuing]. NASA teams are fully engaged 
in----
    Mr. Brooks. Let me move on to another one because I've only 
got 60 seconds left.
    Mr. Gerstenmaier. The NASA teams are fully engaged in----
    Mr. Brooks. The goal, as I understand it from the Vice 
President, is to reach the south pole of the Moon by 2024. Can 
any of you tell me what the additional cost will be, or 
appropriations needed by NASA in order to achieve a landing on 
the south pole of the Moon by 2024?
    Mr. Sirangelo. Not at this time, sir. We are--we have 
provided preliminary estimates to OMB. OMB is reviewing those 
along with our CFO, and that information is imminent.
    Mr. Brooks. What is the preliminary estimate?
    Mr. Sirangelo. I'm sorry, sir, we can't--right now it is 
under review, and we can't come up with a number.
    Mr. Brooks. How would it be paid for? Where would the money 
come from?
    Mr. Sirangelo. That's why we're not here today to be able 
to speak to the money side of the equation because at this 
point in time there's--it's still under discussion with OMB and 
NASA.
    Mr. Brooks. And do you have a judgment as to when we will 
know what the requested amount of additional budget will be?
    Mr. Sirangelo. That will come when OMB releases it. We've 
provided the information. I will say there have been 
significant discussions. The discussions have been very 
positive and open, and as soon as those discussions are 
complete and OMB has approved the numbers, they'll provide it 
to you.
    Mr. Brooks. Thank you, Madam Chair.
    Chairwoman Horn. Thank you, Mr. Brooks.
    The Chair now recognizes Congresswoman Hill for 5 minutes.
    Ms. Hill. Thank you, Madam Chair. And thank you all for 
being here.
    A couple of questions. For NASA's deep exploration systems, 
nearly 4,000 employees in California supplier companies work on 
SLS, Orion, or the Exploration Ground Systems, which is the 
largest supplier workforce of all 50 States. These programs 
are, of course, critical to our national space exploration 
program, and engineers, technicians, and software programmers 
in my district help contribute to the space program and our 
return to the Moon and beyond.
    The Chairwoman already mentioned acquisition. I know you've 
spoken about it some, but I'd like to learn more about how NASA 
will utilize existing contracts and supply chain infrastructure 
in getting to the Moon by 2024, and beyond to Mars.
    Mr. Gerstenmaier. In the case of SLS and Orion, we're--and 
Exploration Ground Systems, those contracts are--we're 
completing the design phase, and then we're going to go into 
production and operation. So we're starting to put out requests 
for proposals for sustained cadence of buying those vehicles, 
and we're looking for ways to buy multiples of the vehicles at 
one time to get a more effective cost plan for us. And that 
also allows industry to then plan for a more stable workforce 
moving forward.
    Ms. Hill. Great. Mr. Gerstenmaier and Mr. Sirangelo, I 
understand that NASA believes there are a small number of basic 
elements needed for the 2024 lunar landing, a power and 
propulsion element, a small habitat, and an Integrated Landing 
System. Given the rapid timeline in which work would need to 
occur to meet the 2024 deadline, can you please explain a few 
things? What are the dates when each of these elements will be 
on contract?
    Mr. Gerstenmaier. We've received proposals for the power 
and propulsion element. Those are being evaluated now by the 
NASA teams, and it should be probably by this summer we should 
make an award or awards for that activity, for the power and 
propulsion element.
    The mini habitation piece that will need to be on the 
Gateway, that's still kind of an early acquisition. We're going 
to go through acquisition strategy meetings at the agency 
probably in the next couple of weeks, then we'll be ready to go 
out with some kind of activity.
    For the lander systems, we've done a synopsis already for 
the descent portion, the transfer vehicle, and the refueling 
piece. We've received proposals for those. We're evaluating 
those now. Probably again, in probably a month or so we're 
ready to go make some awards for study phases for that.
    And then we just recently dropped a synopsis out which 
looks at the entire Integrated Landing System from Gateway down 
to the surface, and the surface back to Gateway. After we 
receive comments to the synopsis, we'll put out an instrument--
a broad agency announcement to go acquire that. And that's 
probably also within about a month or two.
    So in probably 2 months, all the pieces necessary to get to 
2024 will be in some serious study phase, or will be in serious 
acquisition for the hardware and systems to move forward.
    Ms. Hill. OK. You're in agreement, Mr. Sirangelo?
    Mr. Sirangelo. I am in agreement. I would also add that 
what Bill has been speaking to represents a substantial 
utilization of the American industrial base to make that 
happen. And the idea of being able to contract this out, and 
contract this out in this rapid fashion, is one of the benefits 
of being able to move forward quickly, is to make sure that 
industrial base stays strong and stable, and that we have 
access to that for the long-term.
    Ms. Hill. So that relates to would either NASA or the 
contractor be willing to provide Congress with a clear 
understanding of the details of the contracts? So, you know, 
who would be responsible for cost growth and development or 
testing, the government or the contractor, and what's the 
timeline involved in the test program, et cetera, et cetera?
    Mr. Gerstenmaier. We can provide that when we get to that 
phase, or when the plan comes out we can describe that to you.
    I think the thing that's important is in the past NASA had 
to do all of this development on its own in the Apollo era. 
What's really unique now is industry is very capable of doing 
some of these things, and we need to utilize industry where we 
can and take expertise from industry, and work approaches where 
we share risk with them, we share acquisition approaches with 
them. We're doing that in the Commercial Crew Program that we 
just discussed where there's a shared accountability for 
resources and for safety kind of aspects, and we're working 
those. And we'll build off of what we've learned in the 
Commercial Crew Program, and take that forward as we go to the 
lunar systems.
    Ms. Hill. Thanks. So I guess the final question then, we're 
almost 6 months into 2019, and elements are going to need to 
be, of course, completed months in advance of the launch to 
enable integration and with the launch vehicles and 
preparations. How much real confidence do you have that a human 
landing on the Moon in 2024 is achievable?
    Mr. Gerstenmaier. I think it's very achievable. The 
challenge will be can we get through the political process, can 
we get the political stability, can we get the funding 
necessary to go do this in the timeframe to move forward, can 
we get any legislation relief that we might need, and get a 
clarity of purpose, can we get united in this goal enough to 
move forward at the pace that we'd like to go. That'll be the 
biggest challenge.
    Ms. Hill. The money my colleague was talking about.
    Thank you all so much. I yield back.
    Chairwoman Horn. Thank you, Congresswoman Hill.
    The Chair now recognizes Mr. Posey for 5 minutes.
    Mr. Posey. Thank you, Madam Chair.
    It was great to see that NASA has provided recently a 
roadmap to go back to the Moon by 2024. Great step toward 
getting to Mars. Exciting that it's finally happened. To 
achieve, you know, the ambitious timeline, I think that we all 
agree that we need to ensure that there's, number one, 
sufficient funding to get that done. We've had a diagram of 
missions to nowhere. I think we had over 2 dozen different 
missions, over $20 billion up in smoke, because we couldn't 
stay on one plan from Administration to Administration, 
Congress to new Congress.
    Both the Administration and Congress should continually 
fund our critical space assets, such as the SLS, Orion crew 
vehicle, Exploration Ground Systems, Mobile Launcher 2, and the 
Lunar Orbital Platform, obviously.
    Mr. Gerstenmaier, can you, without getting too deep in the 
bushes, just give me a little brief summary of the benefits of 
an SLS Green Run.
    Mr. Gerstenmaier. OK. So I think that the simplest 
advantage is that it allows us to see the integrated system 
work is an integrated system. The engines actually pressurize 
the tank for the Space Launch System, and that's a very complex 
mathematical model of how the cryogenic propellants and things 
interact, and the really--way to see all that is in a full-up 
integrated test. You can test individual components but you 
can't test it as an integrated system, as well as you can, for 
a fairly long duration, test through the Green Run.
    Mr. Posey. OK.
    Mr. Sirangelo. I would add to that that what this test 
essentially is, is a full-run test of the system. We're going 
to take humans; Americans, and put them on top of this rocket. 
We want to see the system work for its full duration burn, and 
the best way to do that is to conduct a full-duration burn 
before we then integrate the rocket and put people on top.
    Mr. Posey. OK. Mr. Sirangelo, in order to support the 2024 
launch date of the SLS with the Exploration Upper Stage (EUS), 
NASA needs to award a contract for the second Mobile Launcher 
at Kennedy Space Center. The Administrator mentioned that the 
contract is likely to be awarded in May, and I wonder if you 
can provide us with a status update on both the EUS development 
and the schedule, as well as when the contract will be awarded 
for the second Mobile Launcher.
    Mr. Gerstenmaier. I can help. We're ready, we're poised to 
go ahead and make the award for the Mobile Launcher as soon as 
the teams do the evaluations. So that award is on track and it 
will be either this month or next month, but it's on track 
moving forward.
    And then the Exploration Upper Stage, we slowed things down 
a little bit. We're running it at a slower rate this year for 
the Exploration Upper Stage. We went from 300 million down to 
150 million expenditure this year for the Exploration Upper 
Stage. That was so we could focus on Exploration Mission-1 on 
the core rocket to make sure that the teams and the equipment 
and effort are getting ready to go support Exploration Mission-
1.
    Mr. Sirangelo. I would add to that, sir, that one of the 
aspects we wanted to make sure the Committee understands is 
that work has not stopped because we've changed the date. We've 
continued to push forward on many elements of the program. We 
continue to look to award, and you'll see several awards coming 
off in the next quarter. So as we go forth and try to look at 
the plan and find ways to accelerate it safely, we are also 
keeping elements of the program which are not going to be 
affected moving forward.
    Mr. Posey. Thank you very much. Madam Chair, I yield back.
    Chairwoman Horn. Thank you very much.
    The Chair now recognizes Mr. Beyer for 5 minutes.
    Mr. Beyer. Thank you, Madam Chair. And thank you, guys, 
very much for being here with us today.
    On the NASA thing, you talked a number of times about 
international partners. Could you talk more about who those 
international partners are? Will they be China, will they be 
Russia, or is this typically France and the U.K., or what's 
left of the U.K.?
    Mr. Sirangelo. We have a number of international partners 
who have been working with us on the Space Station for many 
years. That includes the European Space Agency, the agencies 
within Europe, Japan Aerospace Exploration Agency, Canadian 
Space Agency, and others around the world. We expect to 
continue those relationships and move them forward.
    Mr. Beyer. But not China? Despite how prominent they are in 
The Martian.
    Mr. Sirangelo. Currently, we're precluded from having those 
discussions, sir.
    Mr. Beyer. Yes. I was fascinated by the notion that one of 
the driving forces for thinking about Mars was thinking about 
the long-term sustainability of the human race. And if any of 
you would like to specifically address that idea of building as 
many alternatives into our possible human future, and how the 
Moon-Mars mission builds upon that.
    Dr. Lunine. So, Congressman, I'll try to address that. In 
our Pathways report, we talked about the various reasons for 
human spaceflight, both practical and aspirational, and one of 
them is the aspiration not only to explore, but for humans to 
become a multi-planet species at some point.
    We recognize though the realities of humans living entirely 
independently on a planet as inhospitable as Mars, and so we 
put the two planet species rationale as an aspirational one 
rather than a practical one, in the sense that I don't think 
anybody is at all under the misapprehension that by putting a 
base on Mars we would avoid human extinction should some 
planet-wide catastrophe occur on the Earth. I mean very quickly 
the Mars colony itself would also go away. So we must take care 
of our own planet in order to ensure that we can survive as a 
species, but in living on another planet and having the 
aspiration and the goal to do that, I think it will change our 
perspective as a species and perhaps lead to a future that we 
might not otherwise be able to imagine.
    Mr. Beyer. But you do talk about living off the land as an 
aspirational goal also.
    Dr. Lunine. Yes, we do in the report. That's right.
    Mr. Beyer. But is this also part of the energetic search 
for exoplanets that resemble Earth?
    Dr. Lunine. So that search is, of course, going on 
independently of the Human Spaceflight Program. Within our--I 
think within the understanding today of technology and the 
human condition, the ability to sustain humans beyond Mars is 
something that doesn't seem practical, and the primary issue is 
that there's a type of radiation: Galactic cosmic rays, which 
are very, very difficult to shield against because they're very 
high energy, and so they produce secondary particles when they 
collide with spacecraft and with shields. So that's one of the 
reasons why Mars is the horizon goal.
    Sending humans to other planetary systems around other 
stars is something that one can imagine, but the practicalities 
of it, I think, are beyond us at this point in time. That 
doesn't mean we should not be looking for other Earths, because 
that again, if we find them, will change our perspective on 
what our place really is in the universe.
    Mr. Beyer. I would imagine the excitement has to be too if 
there are other Earths, is there also then other intelligences.
    Dr. Lunine. That's one of the great questions not only of 
science but of humankind. Are we alone in the universe, and are 
there other sentient self-aware beings that we can ultimately 
communicate with.
    Mr. Beyer. Dr. Sanders, you talk about the overall risk-
benefit equation, you know, how safe is safe enough. Who 
determines that equation?
    Dr. Sanders. Anyone who makes a decision on accepting risk. 
When NASA--and usually that's done at a fairly high level in 
NASA, in the administration, depending on how much risk it is 
and what the specific causes are. But it's a decision that our 
panel has advocated and strongly recommended that always be 
documented, which we always say, you know, what are the 
alternatives you looked at, what was your rationale for 
deciding that you're ready to accept that risk and that there 
isn't another--a safer alternative, and the--and what do you 
expect to gain by going forward with that risk.
    Mr. Beyer. Great. Great. Thank you very much.
    Madam Chair, I yield back.
    Chairwoman Horn. Thank you very much.
    The Chair now recognizes Mr. Olson for 5 minutes.
    Mr. Olson. I thank The Chair. And welcome to our five 
witnesses.
    I'd like to start out by talking about a hero of mine and 
probably all of yours, a man named Gene Cernan. Gene is the 
only American to go to the Moon twice. Did that in Apollo 17, 
when he landed, walked on the Moon, our most recent moonwalker, 
and also Apollo 10, the flight that did everything Apollo 11 
did except for land. Gene was here in this very room in 2009 
when this Committee, in a bipartisan manner, fought to save the 
last mission to go to the Moon. It was called Constellation. We 
saved the crew capsule in that battle, but Gene was very 
adamant the best reason to go to the Moon is because that's the 
best place in the universe to train for going to Mars. He 
pointed out a few things. First of all, the gravity. The Moon 
is about one-sixth of our gravity. Mars is one-third of our 
gravity. To train up there, it's much better training than in a 
pool outside the Johnson Space Center. It's real training. In 
fact, the first steps on the Moon were steps, they started 
hopping, they realized I can hop quicker and go places quicker 
by hopping instead of walking. He also pointed out that we 
found out long after he left the Moon there is water on the 
Moon. He said we don't know what we don't know about the Moon.
    And it sounds like all of our panelists agreed that the 
Moon is a good starting point to go to Mars. In fact, I think 
the quote from you, Dr. Lunine, was the Moon is a stepping 
stone for Mars. And, Brother Gerstenmaier, you said it's a 
proving ground for Mars.
    So could all of you go into detail about the benefits of us 
going to the Moon to get us to Mars as quickly as possible? How 
is the Moon tied directly for us going to Mars? Gerst, you're 
up first.
    Mr. Gerstenmaier. I think first of all that the Moon is a--
in a proving ground sense is a great place for us to check out 
the technology to go beyond the Earth Moon system, to build the 
rockets that need to go there, they can have application moving 
forward, we can test them and check them out.
    It's also good from a risk standpoint. Today, we're very 
comfortable in low-Earth orbit where, if something goes wrong 
on station, we can be back in an hour or so, hour and a half. 
When we go out to the Moon, we're now 5 days away. That's a 
challenge, but it's not months away like it is when you go to 
Mars. So learning how to operate, build the procedures in, 
build the stuff that the control center folks do in Houston, 
and understand how to operate around the Moon will be 
absolutely critical to build those skills, to build the 
technology and prove it before it absolutely positively has to 
work as we go toward Mars. And I think it's a--it's very strong 
in that sense.
    Mr. Olson. Mr. Sirangelo, sir. Thank you, Gerst.
    Mr. Sirangelo. Thank you, sir. I would add to that that one 
of the best things that one needs to do in order to get good at 
something is to practice, and to practice consistently. Being 
able to be 5 days away, being able to make the missions that 
we're doing, and to be able to do them in a frequency that we 
can actually learn, develop, reiterate, improve what we're 
doing and do it again, allows us to get much better, much 
sooner.
    So being able to go to the Moon and doing all the things 
that we've been talking about for the last 2 hours is very 
good. Being able to do it on a frequency that we can actually 
take the things back and do it better really makes it a much 
more feasible and practical path. And what it does is actually 
gets us to Mars sooner rather than later.
    Mr. Olson. Thank you. Dr. Lunine.
    Dr. Lunine. Lunine. Yes, thank you.
    Mr. Olson. Sorry about that.
    Dr. Lunine. No, thank you, Congressman. So a number of 
technologies, as Mr. Gerstenmaier mentioned. Radiation safety, 
if we spend a long time on the surface of the Moon we're going 
to have to deal with shielding, that will also be critical for 
transits to Mars. The environmental control and life support 
systems for long-term stays on the Moon will also be applicable 
directly to Mars. We talked about habitats as well. We talked 
about crew health. And aspects of in situ resource utilization, 
even though on Mars it would be primarily for the atmosphere, 
there are aspects of it we would use--we would test on the 
Moon.
    And let me also say that successfully using the Moon as a 
stepping stone, bringing humans back there, working and 
exploring on the Moon provides a success that the public will 
see and recognize as a critical moment, that will then project 
us on to Mars. And we made that point in the report, but let me 
say personally, as a 12-year-old watching--13-year-old watching 
Gene Cernan and Harrison Schmitt in the last Apollo mission, 
exploring the Moon for 3 days, I felt inside of myself that we 
were going on to Mars, and that I would be a part of that. And 
even though we're here almost 50 years later and we're not on 
that journey, going back to the Moon, working on the Moon will 
create that same sense that, yes, we can do that for Mars that 
I felt back in 1972.
    Mr. Olson. Thank you, sir. I'm sorry, Dr. Sanders and Mr. 
Faulconer, I'm out of time, but one comment about Dr. Lunine's 
comments. There's a big radiation belt between Earth and Mars. 
It's called the Van Allen radiation belt. No human being has 
ever gone through that intense radiation. So it sounds like 
Mars has something like we've experienced in the Space Station 
and radiation that we kind of take for granted because we've 
been so short in terms of our time on the Moon or in the Space 
Station compared to a trip right now to Mars with our current 
propulsion systems.
    Thank you, Madam Chairman. I yield back. Go Navy, beat 
Army.
    Chairwoman Horn. Thank you very much, Mr. Olson.
    The Chair now recognizes Mr. Perlmutter for 5 minutes.
    Mr. Perlmutter. Thanks. And thank you to the panel for 
being here today.
    And, Dr. Lunine, I want to start with your last comments 
about thinking that we would be moving on to Mars at some point 
after we had traveled to the Moon. And that's really been my 
driving motivation here is, OK, it's about time, it's about 
time we move on and we get--and I've been agnostic as to 
whether we go straight to Mars, we go to the Moon as a 
waystation, but ultimately to get to Mars. And Mr. Gerstenmaier 
has heard me say this a dozen times or more now, which is--and 
we heard from some NASA experts that 2033 was a feasible 
timeframe when the orbits, so the orbital mechanics, it's not 
just schedule-driven, but it's actually driven by, you know, 
the orbits of these two planets, that that's a shorter travel, 
you know, shorter journey than before.
    So as I listen to you all, I mean there's the rocket 
science and how we deal with the potential radiation issues and 
our astronauts' health, and I'm convinced that we have the 
ability and the technology and the scientists who can work on 
that; the doctors. So we need from you, if I were to get the 
money, OK, and I've said this before, it's a chicken and egg, 
if you were assured that you had unlimited funds to get to Mars 
by 2033, Dr. Lunine, could we do it? We heard from NASA 
earlier, like 2 years ago, that we could do it.
    Dr. Lunine. So I would have----
    Mr. Perlmutter. Not 2.5 percent, not a cadence of 4.4, 
but----
    Dr. Lunine. No, I----
    Mr. Perlmutter [continuing]. Maybe 2.4 or 2.2.
    Dr. Lunine. I understand. So I don't--you know, in all 
honesty, Congressman, I don't know what infinite resources 
actually mean. I will say----
    Mr. Perlmutter. OK. I'll give you an example. Do you know 
how much we came up for the banks over a weekend?
    Dr. Lunine. No, I don't.
    Mr. Perlmutter. $800 billion.
    Dr. Lunine. $800 billion. So----
    Mr. Perlmutter. OK? Now, they paid it back----
    Dr. Lunine. Yes, that's right.
    Mr. Perlmutter [continuing]. With 15 percent interest.
    Dr. Lunine. Right. So let me answer the question, and then 
maybe yield to my colleagues at NASA, if you wish. So in our 
report, we estimated the cost of getting humans to Mars as 
being essentially in that range. Now, in the schedule-driven 
version of our study where you're driven by a schedule, we 
found that you could get to Mars in the mid-2030s, but bear in 
mind that report was written in 2014, so that's already 5 years 
ago. Our estimates based on the Design Reference Missions, and 
so on, require that the human spaceflight part of the NASA 
budget grow each year by about 4 times the inflation rate 
through 2030 in order to make that happen. But again, that was 
2014, and I think I'd like to, if you wish, yield to my NASA 
colleagues now.
    Mr. Perlmutter. Certainly. And I do want to welcome the two 
Coloradans to the panel: Mr. Sirangelo and Mr. Faulconer. Thank 
you.
    Mr. Sirangelo. Thank you, sir. I can't answer the 2033 
question as you asked, but what I can answer is to say that 
this expediting the plan to the Moon, expediting our knowledge 
of how to move in space, how to live in space, how to work in 
space, how to build the systems that allow us to do these 
things, is only going to have a positive effect on our ability 
to get to Mars. So I think the two are linked.
    Mr. Perlmutter. So let's talk about the politics of this 
for a second. And, Dr. Sanders, I appreciate you talking about 
you can't have too aggressive a schedule because the potential 
risk is a problem. But on the other hand, if we don't have a 
schedule, then you've got a problem up here. OK, this isn't so 
much the engineering feats that you all will have to 
accomplish, there has to be a financing sort of goal here, 
otherwise you'll never see it. So it is a chicken and egg. 
We've got to have something that says we can do this by this 
date if you give us this kind of money. And that's what I need. 
And Mr. Gerstenmaier spends about 2 weeks every month here 
testifying before this Committee, so he's heard this before. 
And it may be completely a Pollyannaish vision that I have, but 
I have, Dr. Lunine, that drive that you talked about from being 
a kid who wants to see us get to Mars, with the Moon being 
maybe the stepping stone, but the goal being Mars. And I'm 
saying that to my friend, Mr. Sirangelo, too.
    With that, I yield back to The Chair.
    Chairwoman Horn. Thank you. Thank you, Mr. Perlmutter. And 
thank you for your clear intention. I think we always know 
we're going to see one of the bumper stickers every time.
    The Chair now recognizes Mr. Waltz for 5 minutes.
    Mr. Waltz. Thank you, Madam Chairwoman.
    Thank you so much for coming today, and I'm really thrilled 
to be on this Committee. My district runs just north of Cape 
Canaveral, with Embry-Riddle University front and center there. 
The world's leading aeronautical university. And the Chairwoman 
and I are, I think, a handful of Members that are on both Armed 
Services and the Space Committee. So we're seeing both sides of 
what we're calling the 21st century space race.
    The Acting Secretary of Defense likes to use the term new 
space to describe the expanding role of the commercial space 
industry and developing defense space technology and also 
commercial space technology. Can you discuss the critical 
importance of commercial space to NASA's deep space missions, 
the lessons you're learning from their launches from Cape 
Canaveral, we're expecting launches every week by 2021, and 
then, you know, as you're in phase, I guess, phase alpha, or 
phase A of your planning for the Moon landing, how are you 
engaging commercial space in the private sector in your 
planning sessions? We'll start with Mr. Gerstenmaier.
    Mr. Gerstenmaier. Again, I think we're at a very unique 
time where commercial space could really contribute in a major 
way to what we're doing. And I think that's really important. 
And I don't consider it new space and old space, I consider it 
space.
    We learn a lot from the new participants in the space 
program. They don't have some of the concerns and some of the 
slowness that we have. We can learn how to move fast again, but 
then we also have some experience and some things that actually 
help them too. So this working together actually makes us much 
stronger working together and moving forward. We're very 
actively engaged with them. We're asking them for ideas on how 
to move forward. Where NASA would have probably done the total 
design before, we're now actually involving them in the design 
process. So we can get their good ideas to see what they've 
learned, to see how we can keep manufacturing low, and how we 
can meet the timeframes moving forward.
    So I see this as a tremendously positive time. I think we 
might be in a unique opportunity where we can really team 
together, work together as a team and achieve these aggressive 
goals toward 2024 and on to Mars.
    Mr. Waltz. So the various companies, which we probably 
don't need to go through, but they're being actively engaged 
now, so that the budget and the plan that will come to the 
Committee in the next, I hope in the next few weeks will have 
commercial private-sector participation built into those 
planning procedures?
    Mr. Sirangelo. Yes, sir. And I'll go a step further. As 
Bill mentioned, the teaming, you're seeing the teaming here 
evidence in front of you, sir. I've spent my career in the 
commercial space industry, was one of the founders of the 
Commercial Spaceflight Federation, and chaired it for several 
years. So the idea of NASA creating the team not only outside, 
but inside, is a very useful thing for what we're trying to 
accomplish.
    One of the reasons for the delay in the planning process 
here is that we did reach out to industry, and have had dozens 
of meetings at the Space Symposium and since then, with 
industry throughout the United States, throughout the different 
types of companies in the industry to make sure we did hear 
these voices, make sure we did understand what--how they could 
be part of this. And I think the plan you will see will show a 
balance of using traditional space, NASA centers, NASA space, 
along with a very significant contribution from the commercial 
industry.
    Mr. Waltz. Thank you. Earlier this year, the Defense 
Intelligence Agency released a report about Russia and China's 
activities in space, and long story short, Russia and China 
both explicitly intend to eclipse the United States in space, 
and they are both developing rockets comparable to SLS. From 
your perspective, why is it important that the U.S. have the 
most powerful rocket for both exploration and national 
security, and what do you make of the Chinese landing on the 
backside of the Moon, but then also the recently announced 
research station?
    Mr. Gerstenmaier. Again, I think having a heavy lift launch 
capability is critical to us to be able to get large masses to 
the vicinity of the Moon. That's really important. And I think 
this is where this commercial and government approach works 
well together. The SLS can launch as a backbone and carry the 
pieces that have to be launched as one combined package in one 
shot. Then you can use the commercial industry to launch 
multiple other small pieces to aggregate around the Moon. So I 
think that's critical to us keeping forward and being a leader 
in space, to continue to push those things that don't yet have 
a real opportunity yet for big revenue. That's the appropriate 
role for government. Mark, anything?
    Mr. Sirangelo. I agree with that, but I would--I also take 
one step forward. You know from your time being a Green Beret 
that sometimes you need to stand up and take a stand, and I 
think in this instance what we're doing is saying that we're 
not going to let that happen. It is part of America's DNA as we 
talk about it be part of the leadership of this industry, and I 
think what we are doing here and the whole aspect of our plan 
is to be able to step up and ensure that we keep ourselves at 
the forefront of that.
    Mr. Waltz. Absolutely. Thank you, Madam Chairwoman.
    Chairwoman Horn. Thank you, Mr. Waltz.
    And thank you to all the witnesses. But before we adjourn, 
the Chair and Ranking Member have a few additional questions, 
so if you'll indulge us for a few more moments.
    So I think we've raised some really important issues, and 
that was the critical component of having this hearing today, 
even without the full plan.
    So directing these first couple of questions for Mr. 
Sirangelo and Mr. Gerstenmaier, so you've said that NASA has 
come up with preliminary cost estimates for the moving of the 
2024 program, but right now that those cost estimates are under 
review by NASA CFO (Chief Financial Officer), and then OMB. So 
we've got some more steps to go. So I can understand, of 
course, having the CFO review it, but I'm curious about what 
role--what OMB's review will entail. Do they have in-house 
expertise in engineering or program management, and program 
management that's going to be really sufficient enough to 
credibly modify NASA's cost estimates, because you're clearly 
the ones with the expertise on what it's going to take to do 
this, and what it will take to carry out your mission.
    So what is OMB's role in this, and what resources do they 
have?
    Mr. Sirangelo. OMB's role is as a statutory role, ma'am, 
and from our perspective it's a--we have to go through this. 
It's not just a technical plan that has to be done in order for 
this to be communicated and brought to the Committee in the 
proper manner, we have to have an entire plan put together that 
includes not only the funding, but how do we get it, where does 
it come from, and how does it fit into the Administration's 
view.
    Chairwoman Horn. Yes, I appreciate that and know that role. 
I think the basic concern here, as it's pretty clear that 
regardless of party, we are supportive of NASA, we want to see 
this succeed, but we've seen in the past what happens when we 
don't have all the pieces of the puzzle together. And so I 
think the basic concern is whether NASA is going to be allowed 
to ask for the budget it needs, that--going back to Mr. Lucas' 
point about sufficient funding, the budget it needs to do these 
lunar missions, or is it going to be a lesser amount, because--
that OMB would find acceptable, because, you know, OMB doesn't 
have accountability if these things succeed or fail, they have 
a different role, but we know if it fails, the blame is going 
to fall to NASA. And that goes back to the need for the plan 
and the sufficient budget. So if the mission fails, it's NASA 
that's going to shoulder that burden, and I think all of us 
lose in the end for so many reasons that we've discussed.
    And so, Dr. Sanders, I want to turn to you for a moment and 
ask you to talk for a moment about any risks related to a hard 
goal that is insufficiently funding--insufficiently funded.
    Dr. Sanders. It's a huge risk because it puts NASA in the 
position of having to try to achieve something that's not 
really achievable. And NASA is full of people who are can-do 
people. I mean they're enthusiastic, they're technically 
capable, they will work their hearts out to try and make it 
work, and--but then it's easy--easy, it's possible then to 
start to rationalize that, OK, well, we can take this shortcut 
because it's important and we're going to get there, we'll do 
it, we're going to--we'll make it work, whether it's actually 
feasible to do it. So I think there's a huge risk if you don't 
get the adequate resources to go with the schedule. You know, 
it's always a three-legged stool. You have the cost, schedule, 
performance. You fix two of them, the other one, that's where 
it goes.
    Chairwoman Horn. Thank you very much. And I think that goes 
to the underlying need to see a more detailed plan so that we 
can ensure the next steps and there's sufficient funding, 
because I think many points, so we have to balance risk; what 
is the right risk, and ensure that schedule pressure doesn't 
overcome that, and that there's sufficient funding to do what 
NASA is being asked to do.
    And with that, I will yield to Ranking Member Babin.
    Mr. Babin. Thank you, Madam Chair.
    Just a couple more questions here. I wanted to ask about 
the ISS, Mr. Gerstenmaier. It's one of our Nation's greatest 
technological international achievements. Currently, the U.S. 
and its partners are planning to operate it through 2024. 
According to the National Research Council's Pathways report 
from 2014, if NASA maintains their presence on the ISS past 
2024 without significant increases to NASA's overall budget, it 
will lack the resources to fund the development of systems that 
will push human presence beyond low-Earth orbit until late in 
the next decade. This would leave the Orion vehicle without a 
clearly defined mission, yet abandoning the ISS could mean 
ceding global leadership in low-Earth orbit to other nations 
and our competitors.
    How do we solve this dilemma? If additional funding is the 
answer, where do you propose that we get this additional 
funding? Mr. Gerstenmaier.
    Mr. Gerstenmaier. I think our proposal is to do both: To 
continue to use the ISS because it's a critical testbed to test 
the technology that's going to be needed going forward. For 
example, the carbon dioxide scrubbing system that's going to be 
flown on the Orion capsule, it's actually been tested onboard 
the International Space Station. So there's a synergy between 
Space Station and the exploration.
    I think a lot of times we see this as an either/or trade. I 
really see it as an and. We need to go look at the needs for 
Station and the budget required for Station. We can gain some 
efficiencies potentially in ops. and maintenance a little bit, 
reduce some of those costs, but I think ultimately we need to 
be in low-Earth orbit at the same time we're moving out to deep 
space to test technologies. Space Station is a good testbed to 
do that. We need to utilize Station as long as it's viable from 
a technical standpoint, and it's a piece of exploration. It is 
truly the first step in exploration. Granted, if a couple of 
crew members go almost a year in space, that's going to give us 
tremendous insight into the health mitigations that are 
required for crews when they go to Mars and other destinations. 
Station is paying real benefits today for exploration that if 
you remove Space Station, you actually cripple Space Station, 
you slow down our goals to get to the Moon, you slow down our 
activities to move to--on to Mars.
    So we need to use Station today in an effective manner. We 
need to figure out a way to fund both. It will not be easy for 
you or for us to find that funding. We'll figure out a way to 
do it.
    Mr. Babin. OK.
    Mr. Gerstenmaier. It's necessary for us in the future.
    Mr. Babin. All right, thank you. Then another one to you as 
well. Will NASA develop spacesuits for surface operations and 
update NASA's aging extravehicular mobility units (EMUs)? EMUs 
were designed over 40 years ago. They were designed to fit 
astronauts who made up the Astronaut Corps at that time. Since 
then the Astronaut Corps has diversified, requiring a broader 
range of sizes. If we are to extend ISS, what are your plans 
for EMUs?
    Mr. Gerstenmaier. Yes, we're working on both. The answer, 
basically, is yes to both. We're working on a new spacesuit for 
the Space Station. The goal was to demonstrate, I think in 
2024, and that suit, the life support system on the back part 
of the suit that provides oxygen and CO<INF>2</INF> scrubbing 
for the crew members, also a humidity control and temperature 
control. That's common between an orbit spacesuit, and it's 
common to potentially a spacesuit used on the surface of the 
Moon. So there's applications there. But our intent is to 
develop the suits necessary for both cases. And the Johnson 
Space Center in-house team is working on that spacesuit 
development today. They've actually been in NBL (Neutral 
Buoyancy Laboratory) doing some activities with that suit.
    Mr. Babin. OK. All right, great. Thank you.
    And last, the European Service Module is currently 
manifested through Exploration Mission-2. After that, should 
NASA plan on using a European service module, or should it seek 
other more capable alternatives that may facilitate a broader 
architecture? Mr. Gerstenmaier.
    Mr. Gerstenmaier. Again, I think there's real advantages 
of--to us working with our partners in space, and we can 
selectively choose where we put those partners in the critical 
path. We have put the European Space Agency in the critical 
path for the Orion service module. That's a propellant system 
that maneuvers Orion around in space. They've delivered on 
their promises. They were a little late with the first module--
--
    Mr. Babin. Right.
    Mr. Gerstenmaier [continuing]. They're doing well on the 
second module, and they're actually starting to procure and 
acquire hardware for the third service module. So----
    Mr. Babin. OK.
    Mr. Gerstenmaier [continuing]. But again, I think if they 
continue to deliver, they're a strong partner, they can work 
with us, they help achieve our goals in a more effective manner 
and build the international strength that makes these future 
activities possible.
    Mr. Babin. Anybody else like to add to that? No. Nobody 
wants to chomp on that one. OK, thank you very much, Madam 
Chair.
    Chairwoman Horn. Thank you very much, Ranking Member Babin. 
I want to once again thank all the witnesses for being here, 
before we close.
    These are critical conversations that we need to have, and 
information that we need to obtain. And I think it's safe to 
say that Mr. Gerstenmaier, we'll probably see you here again, 
and many of you, so hopefully, you like seeing our faces. So 
thank you all for being here.
    And need to say that the record will remain open for 2 
weeks for any Members who wish to add statements to the record 
or additional questions, and the questions taken for the 
record. We'll look forward to getting those from you. And the 
witnesses are now excused, and we're adjourned.
    [Whereupon, at 4:26 p.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	


                              Appendix II

                              ---------- 
                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

                                 [all]
</pre></body></html>
